<html>
<title> - HEARING TO REVIEW THE FOOD DISTRIBUTION PROGRAM ON INDIAN RESERVATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       HEARING TO REVIEW THE FOOD
              DISTRIBUTION PROGRAM ON INDIAN RESERVATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2010

                               __________

                           Serial No. 111-53


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
57-927                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           DAVID P. ROE, Tennessee
STEVE KAGEN, Wisconsin               BLAINE LUETKEMEYER, Missouri
KURT SCHRADER, Oregon                GLENN THOMPSON, Pennsylvania
DEBORAH L. HALVORSON, Illinois       BILL CASSIDY, Louisiana
KATHLEEN A. DAHLKEMPER,              CYNTHIA M. LUMMIS, Wyoming
Pennsylvania                         THOMAS J. ROONEY, Florida
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Fortenberry, Hon. Jeff, a Representative in Congress from 
  Nebraska, opening statement....................................     5
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     6

                               Witnesses

Concannon, Hon. Kevin W., Under Secretary for Food, Nutrition, 
  and Consumer Services, U.S. Department of Agriculture, 
  Washington, D.C................................................     6
    Prepared statement...........................................     8
Joseph, Jr., Hon. Andrew, Council Member, Confederated Tribes of 
  the Colville Reservation; Chairman, Health Subcommittee, 
  Affiliated Tribes of Northwest Indians; Chairman, Northwest 
  Portland Area Indian Health Board, Portland, OR................    21
    Prepared statement...........................................    22
Merriman, Norma, Group Leader, Cherokee Nation Human Services, 
  Tahlequah, OK; accompanied by Jerry Snell, Director of Family 
  Assistance; and Bud Squirrel, Food Distribution Manager........    24
    Prepared statement...........................................    25

                           Submitted Material

Goforth Parker, Ph.D., R.N., Judy, Administrator, Nation Division 
  of Health, The Chickasaw Nation, submitted statement...........    39
Goodwin, Gloria, Secretary, National and Regional Board of 
  Directors, National Association of Food Distribution Programs 
  on Indian Reservations, submitted statement....................    42
Newsom, Roxanna, President, National Association of Food 
  Distribution Programs on Indian Reservations, submitted paper..    48
Rose, Ahniwake, Policy Analyst, Health and Education, National 
  Congress of American Indians, submitted statement and fact 
  sheet..........................................................    44
Roy, Susie, Food Distribution Director, Leech Lake Band of 
  Ojibwe; Member, Board of Directors, National Association of 
  Food Distribution Programs on Indian Reservations, submitted 
  statement......................................................    44


                       HEARING TO REVIEW THE FOOD
              DISTRIBUTION PROGRAM ON INDIAN RESERVATIONS

                              ----------                              


                        WEDNESDAY, JUNE 23, 2010

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                           Nutrition, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300, Longworth House Office Building, Hon. Joe Baca 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Dahlkemper, 
Fortenberry, and Lummis.
    Staff Present: Claiborne Crain, Tyler Jameson, John Konya, 
James Ryder, Lisa Shelton, Pam Miller, Mary Nowak, Jamie 
Mitchell, and Sangina Wright.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The hearing of the Subcommittee on Department 
Operations, Oversight, Nutrition, and Forestry to review the 
Food Distribution Program on Indian Reservations will come to 
order. With that, I will begin with opening statements.
    I am Congressman Joe Baca from southern California, 
representing the 43rd Congressional District. After I make my 
opening statement I will turn to the Ranking Member, Mr. 
Fortenberry from Nebraska, to give his opening remarks. And any 
other Members, as they show up this morning, we will allow them 
an opportunity to make some remarks if they wish so. If not, 
then we will turn to the witnesses.
    Good morning, and thank you for being here before the 
Subcommittee to examine the Food Distribution Program on Indian 
Reservations. For many months, I have hoped to hold this 
hearing to take a closer look at the FDPIR program, which in my 
opinion, does not get enough attention. It is unfortunate, but 
a fact of life is that the squeaky wheel gets the grease here 
in Washington, D.C.: out of sight, out of mind. And while the 
tribes have continued to work hard for their communities, they 
are, unfortunately, not always given the attention they deserve 
from Congress.
    With that said, we are long overdue in reviewing the 
effectiveness of this program. In fact, we went back and looked 
at the official records and could not find--and I state, could 
not--find a hearing that focused exclusively on Food 
Distribution Program on Indian Reservations at any time in the 
recent past. So your comments are even more important.
    Not to make you fearful, but you are representing many 
other tribes that are not here, so your statements today are on 
behalf of many others are very much interested in assuring that 
we address the needs of the many tribes throughout the nation. 
And your comments will also be taken into consideration as we 
look at reauthorization of the 2012 Farm Bill.
    We look forward to hearing from our excellent witnesses on 
the range of issues that concern the Food Distribution Program 
on Indian Reservations.
    We all know that access to wholesome and nutritious foods 
affects health, particularly among children and low-income 
populations. The First Lady, Michelle Obama, has done a great 
job of bringing much attention to the needs of better nutrition 
across America. But as we look across America, we must look at 
our reservations and the impact it is having on the tribes.
    In the most recent farm bill, Congress made it a priority 
to strengthen and modernize the nutritional programs like SNAP 
and TEFAP which affect millions of Americans. But we must not 
overlook the Federal nutrition program that serves our tribal 
communities.
    Sadly, the rate of diabetes in these communities is at 17 
percent, almost double the rate of the rest of the population. 
There is a direct correlation between poor nutrition, obesity, 
and the onset of Type 2 diabetes. Proper nutrition and health 
among Native American populations should be a top priority for 
the Federal Government, as well as every taxpayer and every 
individual, because the higher the cost of obesity due to a 
lack of good nutrition, we all ultimately end up paying the 
price.
    That is why we are here; to get answers to so many 
questions: what can we do to stay more informed on unique 
circumstances of each tribal community; how can we work 
together to better understand the issues like geographical 
isolation? We all know what happened with the storms last year 
on many reservations where you couldn't even get in. There are 
chronic health problems and cultural concerns. What method 
works to improve nutrition and health in tribal communities? 
And what methods do not work?
    What are the language barriers? What changes, if any, need 
to be made to the existing Food Distribution Program on Indian 
Reservations to improve its effectiveness? These are just a few 
of those critical questions that we hope to answer at today's 
hearing.
    Again I want to thank you for your willingness to 
participate in today's hearing. It is part of history. You are 
making history and we are creating the kind of awareness and 
the dialogue and collaboration that is needed. We are here to 
listen and to learn so that we can make good policy choices. We 
owe it to you and to our country to act to the best of our 
ability.
    [The prepared statement of Mr. Baca follows:]

Prepared Statement of Hon. Joe Baca, a Representative in Congress from 
                               California

    Good morning, and thank you for being here before this Subcommittee 
to examine the Food Distribution Program on Indian Reservations.
    For some months now, I have hoped to hold this hearing to take a 
close look at a program that--in my opinion--does not get enough 
attention.
    It is an unfortunate fact of life that the squeaky wheel usually 
gets the grease in Washington, D.C.
    And while the tribes have continued to work hard for their 
communities, they are unfortunately, not always given the attention 
they deserve from Congress.
    With that said, we are long overdue in reviewing the effectiveness 
of this program.
    In fact, we went back and looked at the official records and could 
not find a hearing that focused exclusively on FDPIR at any time in the 
recent past.
    So, your comments are even more important, as we anticipate farm 
bill reauthorization in 2012.
    We look forward to hearing from our excellent witnesses on the 
range of issues that concern FDPIR.
    We all know that access to wholesome and nutritious foods affects 
health--particularly among children and low-income populations.
    First Lady Michelle Obama has done a great job of bringing much 
needed attention to the need for better nutrition across America.
    In the most recent farm bill--Congress made it a priority to 
strengthen and modernize nutrition programs like SNAP and TEFAP, which 
affect millions of Americans.
    But we must not overlook the Federal nutrition programs that serve 
our tribal communities.
    Proper nutrition and health among Native American populations 
should be a top priority of the Federal Government.
    That's why we are here today.
    What can we do to stay more informed on the unique circumstances of 
each tribal community?
    How can we work together to better understand issues like 
geographic isolation, chronic health problems, and cultural concerns?
    What methods work to improve nutrition and health in tribal 
communities; and what methods do not work?
    What changes, if any, need to be made to the existing FDPIR program 
to improve its effectiveness?
    These are just a few of the critical questions we hope to answer at 
today's hearing.
    Again, I thank all of you for your willingness to participate in 
today's hearing.
    It is important that you share your candid thoughts with us so we 
can make good decisions about this program.
    We are here to listen and to learn so we can make good policy 
choices.
    We owe it to you and to the country to serve to the best of our 
ability.
    I am now pleased to yield to our Ranking Member, Rep. Jeff 
Fortenberry, for his opening comments.

                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  I am now pleased to yield to our Ranking Member, Representative Jeff 
 Fortenberry from Nebraska, for his opening comments.OPENING STATEMENT 
  OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN CONGRESS FROM NEBRASKA

    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this hearing 
today to review the Food Distribution Program on Indian Reservations. I 
appreciate the witnesses' time and look forward to the testimony on 
this important subject.
    This program does operate differently than the Supplemental 
Nutrition Assistance Program--SNAP, as we call it--which allows 
participants to purchase almost any food item from an authorized food 
retailer with an electronic benefit transfer card, EBT. Instead, the 
Food Distribution Program provides participants with a monthly food 
package to help them maintain a nutritionally balanced diet.
    While both SNAP and the Food Distribution Program have the same 
goal of providing access to healthy food, the manner in which each 
program achieves that goal is quite different, as the Chairman pointed 
out.
    As we begin this process of reauthorizing the farm bill and 
nutrition programs, I am hopeful today that the witnesses will share 
with us what is working well in the Food Distribution Programs and what 
changes may actually need to be considered.
    Chairman Baca and I have both spent a great deal of time, together 
and separately, discussing health and wellness initiatives, and agree 
that balanced nutrition is the key to a healthier America.
    This Subcommittee has held a number of hearings to discuss the 
causes, ramifications, and potential solutions to the rising rate of 
obesity across the country. I am always interested in learning about 
innovative approaches that encourage a healthy lifestyle that includes 
nutritious diet and increased physical activity.
    Seven out of every ten deaths in this country are caused by a 
chronic condition, and the top four killers are heart disease, 
diabetes, cancer and strokes. These are largely lifestyle-related 
diseases. They could be prevented or better managed, and in some cases 
even reversed through healthy lifestyle changes. The Food Distribution 
Program can be a part of this solution by providing a nutritionally 
balanced food package that includes quality, fresh, desirable foods 
that appeal to the participants in the program as well.
    I look forward, again, to hearing from our witnesses today to learn 
more about how the program has actually been operating and, again, what 
has been successful and what we might seek to change in the 2012 Farm 
Bill.
    Again, Mr. Chairman, thank you for your leadership on this issue. 
And I look forward to the insights that we learn together today.
    The Chairman. Thank you very much for your comments and your 
continued concern as we address this issue and many other issues in 
this Committee, as well.
    I am going to request that other Members submit their opening 
statements for the record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    Thank you, Chairman Baca, for calling today's hearing. I am glad we 
are here to discuss the Federal Food Distribution Program on Indian 
Reservations (FDPIR). This is the first hearing of the House 
Agriculture Committee focused primarily on FDPIR and issues related to 
food distribution on Indian Reservations. So, we are long overdue to 
have a productive and frank conversation about how this program is 
working.
    Today, I hope we can take a look at the FDPIR and how it is working 
for the Native American populations it is intended to serve. One of 
this Committee's many responsibilities is oversight, and we need to 
ensure that both the beneficiaries of FDPIR and the American taxpayer 
are being well-served. As the Committee begins to consider the 2012 
Farm Bill, we are taking a look at many of the programs under the 
Committee's jurisdiction to be sure that we are spending available 
money as effectively as possible, and today's hearing is exactly the 
type of conversation we need to have.
    Most people agree that FDPIR needs some improvements. And so, we 
need to hear from those who use FDPIR to help us assess the current 
situation and consider possible changes. I want to thank our witnesses 
for testifying today and sharing their views and expertise, because is 
absolutely critical to that conversation.
    Chairman Baca, thank you again for holding today's hearing, and I 
look forward to the testimony.

    The Chairman. At this time we would like to turn it to our 
first witness. We would like to welcome Honorable Kevin 
Concannon, Under Secretary for Food, Nutrition, and Consumer 
Services, U.S. Department of Agriculture in Washington, D.C. 
Mr. Concannon, please begin when you are ready.

          STATEMENT OF HON. KEVIN W. CONCANNON, UNDER
               SECRETARY FOR FOOD, NUTRITION, AND
CONSUMER SERVICES, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
                              D.C.

    Mr. Concannon. Thank you very much. Good morning and thank 
you, Mr. Chairman and Ranking Member Fortenberry, and Members 
of the Committee, for this opportunity to discuss the Food 
Distribution Program on Indian Reservations, or as we refer to 
it, FDPIR.
    I am pleased to be here today to give an overview of this 
important USDA program that fulfills a vital need serving low-
income Native Americans who live on or near reservations. FDPIR 
is an alternative to the Supplemental Nutrition Assistance 
Program and is authorized under the Food and Nutrition Act of 
2008. The program provides packages of nutritious USDA foods on 
275 Indian Reservations, pueblos, rancherias and Alaska Native 
Villages. Five state agencies and 99 Indian Tribal 
Organizations, or ITOs, provide this assistance to an average 
of 90,000 participants each month.
    How the program works. Today's FDPIR is an updated, modern 
version that is attuned to nutritional goals, and purchases 
food specifically for the food package, rather than relying on 
surplus items. And I think that is really important.
    USDA ships foods to the ITOs and state agencies based on 
their orders from a list of more than 100 available foods. 
These agencies store and distribute the food, determine 
applicants' eligibility, and provide nutrition education to 
recipients. ITOs have latitude to decide how to set up their 
food delivery system to be responsive to participant needs in 
their communities, including pickup from a local warehouse, 
delivery to a central location within the community, store-like 
locations or, as I saw last week up in Minnesota, even routes 
that may be 150 miles in terms of range that are delivered from 
a central location.
    President Obama's budget for this program for Fiscal Year 
2011 is $110 million, which breaks out to be approximately $73 
million for food purchases and approximately $37 million for 
administrative funding.
    The food package provides a variety of food items to 
participating households to help meet their nutritional needs. 
It is reviewed on an ongoing basis for its nutritional profile 
and customer satisfaction by the FDPIR Food Package Review Work 
Group, which includes representatives of the tribally and 
state-appointed FDPIR directors, USDA procurement specialists, 
nutrition and health experts from the Food and Nutrition 
Service, the Centers for Disease Control and Prevention, and 
the Indian Health Service.
    One clear focus of this work group has been to reduce fat, 
sugar, and sodium levels and to improve food package appeal and 
convenience to recipients. As a part of the strategic plan of 
the Department of Agriculture to encourage local and regional 
food production, FNS is continuing to explore how traditional 
foods important to many Native communities can be incorporated 
into FNS' nutrition assistance programs.
    With regard to Native communities, we already possess the 
authority to purchase traditional foods. Incorporating these 
more culturally appropriate foods will improve farm income 
within the reservation communities.
    Complementing the foods offered in the FDPIR are several 
nutrition education initiatives. We are working with tribal 
communities and other health organizations to continue to 
understand the health and nutritional challenges facing those 
who receive FDPIR services such as--as the Chairman has noted--
the high rates of overweight, obesity and diabetes found among 
American Indians.
    We have awarded approximately $1 million each year to 
Indian Tribal Organizations in grants for nutrition education 
since 2008, and I witnessed one of those again last week when I 
was in Minnesota. These have included individual nutritional 
counseling, cooking demonstrations, nutrition classes, 
dissemination of information on how to use and store USDA foods 
that are part of the Indian tribal food distribution programs.
    Funds for administrative costs in FDPIR have been a concern 
for the Indian Tribal Organizations. In 2005, FNS convened a 
funding work group comprised of FNS staff, state and ITO 
representatives, which resulted in a funding methodology that 
allocates funding based on the number of FDPIR participants and 
the number of programs in each of the seven FNS regions of the 
country.
    Another important enhancement for FDPIR was $5 million in 
the American Recovery and Reinvestment Act funding last year to 
purchase equipment and improve facilities. Funds were used for 
the purchase of trucks, warehouse equipment, needed upgrades or 
repairs to heating and cooling systems, roofing, and even 
warehouse structures.
    FNS remains committed to meeting its responsibilities as 
identified in President Obama's memorandum regarding tribal 
consultation and collaboration. Secretary Vilsack, our 
Secretary, has an action plan for the Department of Agriculture 
with regard to tribal consultation. To those ends, FNS is 
working with Department officials to develop a plan to actively 
engage with tribal governments in consultation regarding this 
very feeding program.
    Looking forward, it is clear that FDPIR continues to 
fulfill an important place in the Federal food safety net. It 
combines extensive reach into Indian Country with the 
opportunity for local administration. Yet we are always looking 
for ways to improve the program. We will continue to work 
closely with partners such as ITOs, state agencies, and 
Congress to ensure that we are doing all we can to assist the 
Native American community.
    And I thank you for the opportunity to testify today. I 
look forward to answering any questions that you may have. 
Thank you very much.
    [The prepared statement of Mr. Concannon follows:]

  Prepared Statement of Hon. Kevin W. Concannon, Under Secretary for 
Food, Nutrition, and Consumer Services, U.S. Department of Agriculture, 
                            Washington, D.C.

    Good morning, and thank you, Mr. Chairman, Ranking Member 
Fortenberry, and Members of the Committee, for the opportunity to 
discuss the Food Distribution Program on Indian Reservations (FDPIR).
    I am pleased to be here today to give an overview of this important 
USDA program that fulfills a vital need to serve low-income Native 
Americans who live on or near reservations. FDPIR is an alternative to 
the Supplemental Nutrition Assistance Program (SNAP, formerly the Food 
Stamp Program) and is authorized under Section 4(b) of the Food and 
Nutrition Act of 2008. The Program provides food packages of nutritious 
USDA foods on 275 Indian Reservations, pueblos, rancherias, and Alaska 
Native Villages. Five state agencies and 99 Indian Tribal Organizations 
(ITOs) provide this assistance to approximately 90,000 participants 
each month.

History of FDPIR
    The FDPIR was born from the Needy Family Program, which predated 
the Food Stamp Program and utilized surplus food donations while 
operating in many counties and Indian Reservations in the 1960s and 
1970s. With the effort to make the Food Stamp Program available 
nationwide in the 1970s, there was also an effort to phase out the 
Needy Family Program. Several tribes that were operating that program, 
however, were reluctant to move toward food stamps because stores that 
accepted food stamps were not always conveniently located and may not 
have offered products at affordable prices. The Food Stamp Act of 1977 
afforded low-income households on reservations the option of 
participating in either the Food Stamp Program or FDPIR; if they so 
choose, participants are actually able to switch between the two 
programs each month according to their need and preference. However, 
access to healthy and affordable food remains limited in or on many 
reservations.

How FDPIR Works
    Today's FDPIR is an updated, modern program that is attuned to 
nutritional goals and purchases food specifically for the food package 
rather than relying on surplus items. USDA ships food to the ITOs and 
state agencies based on their orders from the list of available foods. 
These agencies store and distribute the food, determine applicant 
eligibility and provide nutrition education to recipients. FDPIR 
operates on established Indian reservations, which are located mostly 
in the West, Midwest, and Southwest and are often very rural. There are 
a number of ways that participants can obtain their food packages, 
including pick up from a local warehouse, delivery to a central 
location within the community, or from ``store locations'' at some 
reservations. ITOs have latitude to decide how to set up their food 
delivery system to be responsive to participant needs in their 
community. USDA provides administrative costs to administering ITOs and 
state agencies to support program delivery. The President's budget for 
this program for Fiscal Year 2011 is $110 million which breaks out to 
approximately $72.9 million for food purchases and about $37.1 million 
for administrative funding.

FDPIR Food Package
    FDPIR provides a variety of food items to participating households 
to help meet their nutritional needs. Included in the food package are: 
frozen meats, canned meats, fresh and canned fruits and vegetables, 
juices, peanuts and peanut butter, vegetable oil, soups, pastas, rice, 
cereals, cheese, beans, flour, and low-fat bakery mix.
    The food package is reviewed on an on-going basis for its 
nutritional profile and customer satisfaction by the FDPIR Food Package 
Review Work Group that includes representatives of the tribally- and 
state-appointed FDPIR directors, procurement specialists from the Farm 
Service Agency and the Agricultural Marketing Service, and nutrition 
and health experts from the Food and Nutrition Service (FNS), the 
Centers for Disease Control and Prevention, and the Indian Health 
Service.
    A clear focus of the work group has been to reduce fat, sugar, and 
sodium levels and to improve food package appeal and convenience to 
participants. We are very proud of the FDPIR Food Package Review Work 
Group and what this partnership has accomplished so far. The Work Group 
is considering more improvements to the food package, such as more 
fruits, vegetables, meats, reduced-fat dairy products, and whole grain 
selections.
    One recent item under consideration for the FDPIR food package is 
bison. This item has been popular with tribes. However, due to its 
higher cost, bison has only been offered with specific Congressional 
appropriation. In recent discussions with the FDPIR Food Package Review 
Work Group, the possibility of offering this on a seasonal basis has 
been discussed, and we are working to see if this can be accommodated. 
As we come closer to a resolution, we will be advising the Committee of 
our progress.
    Over the past several years, all USDA foods--including those 
offered under FDPIR--have been subject to nutritional review and the 
items in the package now have reduced sodium, sugar, and fat content. 
FNS is guided in this effort by the Dietary Guidelines for Americans.
    Before leaving the discussion of the food package, I want to 
explain something we call DOD Fresh. Started as a pilot in October 
1995, in cooperation with the Department of Defense (DOD), the program 
allows DOD to supply fresh fruit and vegetables directly to schools. 
Due to its success, DOD Fresh was expanded to include purchases for 
FDPIR, thereby allowing the programs to order fresh fruits and 
vegetables using DOD purchasing agents. About 91 percent of FDPIR 
programs are enrolled in this option, allowing for a variety of fruits 
and vegetables probably not available any other way. Households may 
select the fresh produce in lieu of the canned fruits and vegetables 
when they pick up their monthly food package.
    To give an example of the fresh produce offered through DOD Fresh, 
some recently added selections include more apple varieties, asparagus, 
avocado, Brussels sprouts, cauliflower, cherries, seedless grapes, 
honeydew melon, kiwis, Romaine lettuce, nectarines, plums, and 
radishes.
    FNS is working with other USDA agencies to encourage local and 
regional food production as part of the overarching strategic plan of 
the Department. FNS is exploring how traditional foods important to 
many Native communities can be incorporated into FNS' nutrition 
assistance programs. With regard to Native communities, we already 
possess the authority to purchase traditional foods. Incorporating 
these more culturally appropriate foods will improve farm income within 
reservation communities.

Food Package Quality
    The 2008 Farm Bill required USDA to review the nutritional quality 
of the food package provided for FDPIR, comparing its content to 
scientific standards including the Dietary Guidelines for Americans and 
nutrition benefits under SNAP. We also made comparisons to the Dietary 
Reference Intakes (DRIs), the Thrifty Food Plan nutrient standards and 
the Healthy Eating Index--2005. To quote from the summary of the FDPIR 
Food Package Nutritional Quality: Report to Congress:

        The FDPIR food package provides a nutritious variety of foods, 
        and sufficient calories to meet the energy needs of most 
        sedentary individuals and many moderately active children. 
        While, similar to American diets in general, there is room for 
        improvement in the quantities of fruits, vegetables, low-fat 
        dairy products and whole grains, the nutritional content of the 
        package is considerable. Individuals consuming FDPIR foods in 
        the quantities provided would achieve a HEI-2005 score of 81 
        out of 100, considerably better than Americans in general (58 
        out of 100) and SNAP participants (52 out of 100). The efforts 
        of the FDPIR Food Package Review Work Group, a partnership 
        between FNS and the American Indian community to improve the 
        food package, have contributed to the package's quality.\1\
---------------------------------------------------------------------------
    \1\ The entire report can be found at http://www.fns.usda.gov/oane/
menu/Published/FoodDistribution/FDStudies.htm.
---------------------------------------------------------------------------
Web-Based Ordering
    FNS is currently in the midst of major system changes that will 
affect the ordering process for our program operators. In the coming 
months, FNS and other agencies will be transitioning to Web-Based 
Supply Chain Management (WBSCM). WBSCM is an initiative to replace the 
aging Processed Commodity Inventory Management System (PCIMS) and 
satellite systems including USDA's Electronic Commodity Ordering System 
(ECOS). WBSCM is a commercial off-the-shelf system featuring standard 
e-commerce food order entry, real-time order and shipment status, 
online viewing of shipment documents, and an integrated enterprise 
supply chain system. It will make doing business with USDA easier by 
increasing collaboration, data and information visibility, efficiency, 
and improving service to customers, suppliers, and business partners 
through a seamless, efficient supply chain.
    WBSCM is slated to go live at the end of this month (June 2010). 
This will impact FDPIR because FNS must temporarily stop most food 
ordering in mid-June. FNS has been preparing FDPIR ITOs and state 
agencies for this transition by providing training sessions on the new 
system and encouraging all ITOs and state agencies to order the foods 
they need to serve full food packages to participants in advance of the 
mid-June cutoff date. Ordering through the new system will start at the 
beginning of July.

Nutrition Education Materials
    Complementing the foods offered in the FDPIR are several nutrition 
education initiatives. We are working with Tribal communities and other 
health organizations to continue to understand the health and 
nutritional challenges facing those who receive FDPIR services. 
American Indians in general face high rates of over weight, obesity, 
and diabetes. Our concern over these diet-related illnesses is linked 
to our broader concerns with the obesity epidemic. Strengthening FDPIR 
is one of the many steps USDA will be taking to contribute the 
Administration's goal of solving the problem of childhood obesity 
within a generation. Over 16 percent of American Indian and Alaska 
Native adults served by the Indian Health Service have been diagnosed 
with diabetes, about twice the rate found in U.S. non-Hispanic whites. 
Diabetes-related mortality for these groups is about three times the 
national rate. In addition, up to 75 percent of American Indians are 
lactose intolerant, potentially limiting their use of low-cost dairy 
products containing lactose and presenting a challenge in delivering 
adequate calcium, potassium and vitamin D.\2\ We at USDA want to be 
sure that our programs are responsive to concerns about diet-related 
illnesses.
---------------------------------------------------------------------------
    \2\ FDPIR Food Package Nutritional Quality: Report to Congress--
Summary, Food and Nutrition Service, Office of Research and Analysis, 
November 2008. http://www.fns.usda.gov/oane/
---------------------------------------------------------------------------
    We understand that we need to be part of the solution and. USDA is 
committed to ensuring that we have materials and support for increasing 
nutrition awareness and effecting wise food choices. We provide FDPIR 
participants with information about nutrition and suggestions for 
making the most nutritious use of USDA foods. Available materials 
include:

  <bullet> USDA food fact sheets that provide storage, preparation 
        tips, nutrition information, and recipes are accessible on the 
        FNS website: www.fns.usda.gov/fdd/programs/fdpir/cfs_fdpir.htm.

  <bullet> ``A River of Recipes: Native American Recipes Using 
        Commodity Foods''--A collection of tried and true recipes 
        submitted by program participants (accessible on the website 
        at: www.fns.usda.gov/fdd/recipes/hhp/fdpir-cookbk_river1.pdf). 
        Also, we are developing another book containing 40 culturally 
        relevant recipes using USDA foods along with photographs and 
        graphics. Some of these recipes were submitted to us by program 
        participants.

    In FY 2010, we distributed seven different nutrition education 
videos in DVD format to each ITO and state administering FDPIR. The 
videos can be shown to program participants in waiting areas, during 
nutrition education classes and special events, and in other venues. 
Topics covered include how to analyze food labels, eating healthy 
portion sizes, and choosing healthy beverages.
    In FY 2007, we initiated a FDPIR NutritionTalk Listserv. The 
listserv plays a role in promoting open communication and an exchange 
of information between tribal communities, USDA, and other agencies and 
organizations that provide diverse nutrition education, materials, 
resources, and/or health-related services to participants in FDPIR.
    Administering agencies are responsible for providing nutrition 
education to participants. Federal administrative funding is available 
for these activities, which can include individual nutrition 
counseling, cooking demonstrations, nutrition classes, and the 
dissemination of information on how USDA foods may be used to 
contribute to a nutritious diet and on the proper storage of USDA 
foods. In FY 2008-2010, we awarded nutrition education grant funds 
totaling approximately $1 million each year to ITOs. These grants were 
created to enhance the nutritional knowledge of participants and to 
foster positive lifestyle changes for eligible household members 
through intensive, integrated nutrition education interventions.
    Additionally, we are currently working in conjunction with USDA's 
Food and Nutrition Information Center to develop a nutrition education 
training module for FDPIR staff providing nutrition education to 
recipients. The module will be available via the Internet. It will 
provide tips on making nutrition education fun, advice on serving low-
literacy recipients, and information on reading food labels, nutrient 
basics, food safety, and other topics. We are also developing a 
depository site where nutrition education and technical assistance 
materials for FDPIR recipients, and best nutrition education practices 
can be shared by ITOs and states. FNS is committed to working with 
Tribal governments to ensure that the administrative and delivery 
mechanisms for FDPIR ensure to the greatest extent possible the dignity 
and self-worth of those receiving package benefits.

Administrative Costs
    Funding for administrative costs in FDPIR has been a concern for 
the ITOs and, in 2005, FNS convened a FDPIR Funding Work Group 
comprised of FNS staff and representative of the tribally- and state-
appointed Program Directors to develop a funding methodology that would 
be fair and easy to understand.
    This was a large and difficult undertaking--bringing divergent 
perspectives together to solve a common problem. The result was a 
funding methodology that allocates funding among the FNS Regional 
Offices, with 65 percent of the funds allocated based on each Regional 
Office's share of the national number of FDPIR participants, and 35 
percent allocated according to the number of FDPIR programs in the 
region. Each Regional Office continues to negotiate with individual 
FDPIR administrators on the approval of their annual program budgets, 
within the amount of funds allocated to the Regional Office.
    Another important enhancement for FDPIR was $5 million in American 
Recovery and Reinvestment Act (Recovery Act) funding last year to 
purchase equipment and improve facilities. Funds were used for the 
purchase of trucks and warehouse equipment and needed upgrades or 
repairs to heating and cooling systems, roofing, and warehouse 
structures.

Comparison to SNAP
    I mentioned earlier that FDPIR was intended to be an alternative to 
SNAP. In fact, household eligibility is very similar between the two 
programs. For example, under both programs, a household's net monthly 
income must be less than 100 percent of the Federal Poverty Guidelines. 
However, under SNAP, states have options like waiver authority (where, 
for example, the requirement for face-to-face interviews could be 
waived), categorical eligibility, and other rules allowing for 
flexibility. In FDPIR, the original design goal was to keep the income 
and resource limits at the same level as SNAP so that most households 
would be eligible for both programs. Month-to-month switches between 
the programs are allowed. The more complex features in SNAP were not 
carried over to FDPIR so that the program would be easier to 
administer. The benefit delivered also makes the two programs differ. 
In SNAP, as household income rises, the amount of SNAP benefit 
decreases up to the minimum allotment. In FDPIR, there is no benefit 
reduction from the full food package amount, making the food package a 
better deal for those with net monthly incomes close to the income 
limit.
    There are also practical and cost limits to what is available for 
delivery in FDPIR. While USDA does work continuously to improve the 
healthfulness and variety of the foods we offer, large grocery stores 
can offer thousands of items that can be purchased with SNAP Electronic 
Benefits Transfer (EBT) cards; this variety of food choices is one 
widely reported reason that households switch from FDPIR to SNAP. Under 
the Recovery Act, the law raised the Thrifty Food Plan allotment by 
13.6 percent starting in April 2009, giving households in SNAP 
increased purchasing power and improving the comparative attractiveness 
of SNAP to FDPIR.

Future Considerations
    As we move forward, we will continue to look for opportunities to 
support the nutrition needs of Native Americans, not only through FDPIR 
but our other nutrition programs as well. For example, we are currently 
exploring strategies for encouraging greater use of traditional native 
foods through the school meals program. The 2008 Farm Bill gave schools 
greater flexibility to preferentially purchase locally-produced 
unprocessed agricultural projects. USDA is now working with Bureau of 
Indian Affairs and Bureau of Indian Education to improve school lunch 
offerings in BIA schools, while encouraging farm-to-school market 
opportunities for farmers and ranchers, increasing access to 
traditional foods, and implementing the First Lady's `Let's Move' 
initiative focused on reducing childhood obesity within BIA schools.
    FNS remains committed to meeting its responsibilities as identified 
in the Presidential Memorandum regarding Tribal Consultation and 
Collaboration, and the Secretary's Action Plan for the Department with 
regard to implementation of E.O. 13175. We recognize the 
responsibilities USDA and FNS hold with regard to Tribal governments 
and their citizens and we respect the government-to-government 
relationship. USDA's Strategic Plan additionally recognizes and 
incorporates these important responsibilities. To those ends, FNS is 
working with Department officials to craft a plan to actively engage 
with Tribal governments in consultation with regard to FDPIR. We would 
be glad to brief the Committee at a future date concerning the outcomes 
of those consultation sessions.
    Looking forward, it is clear that FDPIR continues to fulfill a 
unique place in the Federal food safety net. No other nutrition 
assistance program combines the reach into Indian Country with the 
opportunity for local administration. Yet we are always looking to 
improve the program and will continue to work closely with partners 
such as ITOs, state agencies, and Congress to ensure that we are doing 
all we can to assist the Native American community.
    Thank you for the opportunity to testify today. I look forward to 
answering any questions that you may have.

    The Chairman. Thank you very much for your testimony this 
morning.
    Before I begin with the questions, I would like to welcome 
Kathy Dahlkemper from Pennsylvania to our Committee.
    With that, I will begin with some of the questions. We will 
have 5 minutes, and then at the end of 5 minutes I will turn it 
over to other Members here to ask additional questions.
    Under Secretary, one of the questions that I have is 
pertaining to diabetes. With the high rate of diabetes among 
Indian populations, is there a way to combine the nutritional 
goals of FDPIR with the health needs of those with diabetes?
    Mr. Concannon. Mr. Chairman, yes, indeed. And again, I was 
fortunate to fly up to Minnesota last week to observe firsthand 
an Ojibwe Reservation's efforts and initiatives in the FDPIR 
program. And while I was there, I also got to meet 
representatives from the Indian Health Service, from the tribal 
leadership itself, and from the FDPIR program operated in those 
communities; in this case, White Earth. And they had a specific 
focus on education, both preventive education to prevent 
diabetes, and they showed me some very culturally aligned, very 
appropriate versions of the food, My Food Pyramid that had been 
adopted--or adapted, I should say--to the tribal community. It 
was a tepee-shaped MyPyramid that showed in each of the 
categories of MyPyramid the specific FDPIR foods and where they 
fit in: the grains, the fresh vegetables, et cetera. And they 
showed me some, again, efforts that they make with families 
when they come in. And I was particularly pleased to see the 
engagement with the Indian Health Service and the commitment of 
the tribal leadership itself on the nutrition education side. 
They were very much aware of it. This was an outstanding 
example to see it firsthand.
    So I know, as I mention in my testimony, when we select the 
foods for this, we have participation from that advisory group 
from the Centers for Disease Control that has a pretty 
significant initiative, as it pertains to diabetes in the 
Indian community. We link our education funds, and, in fact, a 
person, a Native representative who was there last week, who is 
actually part of the SNAP education program. So, in this 
particular community, there is a lot of integration of the 
various education efforts, recognizing the terrific challenges 
that are there with the very high rates of diabetes that you 
mentioned in your statement.
    The Chairman. Thank you. Have there been any studies that 
have been done? Because we should look at nutrition and 
diabetes and the effects on our children and adults, and on the 
life span of individuals on our reservations.
    Mr. Concannon. I am not directly aware myself. I know there 
have been studies done by us under CDC auspices around diabetes 
in the Native Community, but I am unaware directly. I will have 
that checked out in terms of life span. But I would expect it 
would adversely affect life expectancy, just because of those 
very high rates.
    The Chairman. Right. A lot of our children are dying a lot 
sooner because of obesity. That has led to a lot of interest 
around the issue of nutrition and changing the culture in terms 
of eating. I know that you addressed that in part of your 
testimony, that we need to begin to change the culture of what 
we eat. It doesn't mean that we can't eat some of the same 
food, but we have to eat in moderation. It impacts us. And it 
impacts the type of food distribution on our reservations, too.
    Mr. Concannon. You know, Mr. Chairman, I appreciate your 
reference to the food that is distributed on the reservations. 
I took the occasion to spend some time in the warehouse of this 
tribal organization, and the warehouse manager, as well as the 
FDPIR director for the tribal community, were pointing out to 
me the individual items that are now available through FDPIR. 
And as I mentioned in my testimony, it is no longer the surplus 
food program that it was when it started back in the 1970s. The 
food has been markedly improved in terms of less sodium, less 
sugar. There is much more focus on nutritious foods, more whole 
grains.
    And the staff in the warehouse pointed that out to me as 
they were filling orders for individual families. Less salt, 
for example, in the canned vegetables that were available. They 
brought me into the freezer to show me the fresh produce that 
is available through the Department of Defense as part of the 
FDPIR program, which are additions to the program in recent 
years. So we know the food package is getting healthier.
    But I was also reminded by a tribal nurse that they have 
the same challenges in tribal communities that the rest of the 
country has with young people not exercising enough. We spend 
too much time watching television, playing computer games, 
working on computers. And interestingly enough, this particular 
tribal community had a program they run in the summertime, a 
camp that is very much focused on nutrition, but also activity. 
But you have to physically be active.
    The Chairman. Okay, thank you. You mentioned at the 
beginning of your testimony, if I am correct, that in the food 
distribution allocation for 2011, the President has allocated 
$110 million. Is that correct?
    Mr. Concannon. Yes, sir.
    The Chairman. Is that enough for food distribution on our 
reservations in light of the high unemployment, and in light of 
the economic situation that we are in right now?
    Mr. Concannon. That is a fair question to ask. But it 
reflects our best belief that this will be adequate to cover 
the needs, because there has been a slight decline in the 
actual number of FDPIR recipients because, as I think you and 
the Ranking Member realize, Native Americans have the option of 
either participating in FDPIR program or in the SNAP program.
    And I have asked internally at FNS that in the next year, 
whereas we are now developing our research agenda, that we look 
at the interaction between SNAP and the FDPIR program.
    I believe that some individuals are moving from FDPIR over 
to the SNAP program because, in the stimulus bill, if you will 
recall, the average monthly benefit in SNAP was increased, and 
that same increase was not accorded to the FDPIR program. So I 
believe there are individuals who are making decisions to move 
into SNAP.
    Of the 40 million people in the U.S. currently on the SNAP 
program, 1.4 million of that 40 million identify themselves as 
Native Americans.
    Personally, that's unfortunate because the FDPIR program 
offers a particularly relevant and healthy set of food choices. 
But, its average monthly value may be viewed as less than 
should that family be on the SNAP program in areas where they 
have access to other food stores. And in many places, as I 
think the Chairman and Members are aware, tribal communities 
are located in isolated regions, and they don't have good 
access to supermarkets. They are in virtual ``food deserts,'' 
as the term has come to be used.
    The Chairman. What can be done to create the awareness of 
what is available to many of our tribes in the reservations? 
This is money that has already been allocated in our past farm 
bill. Yet, there is lack of participation. Individuals are 
still not applying and utilizing the SNAP program the way they 
should be.
    It is not like it is going to cost the state or the 
reservations or anyone additional dollars. These are dollars 
that are already allocated that are just sitting there that are 
not being used.
    What do we need to do to educate our communities and create 
the kind of awareness that will make our tribes a lot 
healthier? What can be done, either through education programs, 
awareness programs, outreach programs?
    Mr. Concannon. Well, Mr. Chairman, I think clearly one of 
the areas in which more effort and more focus has to be devoted 
is to communicate to the tribal communities that the food 
package, the 100+ foods that are available through the FDPIR, 
indeed, are not the surplus commodities of old. It is a much 
improved food package. And we suffer, frankly, from the sort of 
stereotype or the legacy of that old-line surplus food program.
    These are much healthier foods. And I know that is an area 
that we are very interested in, in basically communicating a 
more up-to-date brand, if you will, on the fact that these 
foods are healthier, they have less salt, less sugar. You no 
longer can purchase or receive certain commodities in this 
because they were out of compliance with the dietary 
guidelines.
    Interestingly enough, Congress directed the Food and 
Nutrition Service in the 2008 Farm Bill to assess the health 
quality in the FDPIR food package. And four measures were used. 
Those were the dietary guidelines for all Americans, the 
MyPyramid, the thrifty food plan that we rely upon, and the 
healthy eating index that has been developed by the Center for 
Nutrition Policy and Promotion.
    And interestingly enough, the food package available in the 
FDPIR program received a composite score of 81. The food that 
the average American eats in all income levels received a score 
of 58. And the SNAP program participants received a score of 
52. So actually, this program, FDPIR, both on the basis of the 
foods available and the foods selected by recipients, has moved 
much further in the direction of better nutritional eating.
    So part of it is our goal to overcome the stigma, if you 
will, of the history of the past program. But also, we need to 
make sure that we keep the program in alignment in terms of 
eligibility and benefits with the SNAP program because that has 
historically been the intent of Congress: to make sure that 
this program parallels the SNAP program.
    The fact that with the stimulus additions to SNAP, SNAP may 
be viewed in certain communities across the country as more 
financially beneficial than the FDPIR. And I think that would 
be an important area to look at in the reauthorization of the 
next farm bill.
    The Chairman. Thank you very much.
    At this time, I would like to turn it over to our Ranking 
Member, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    I am very interested in the last comment you made, because 
it is related to what I have been interested in finding out. 
Whether or not there is a correlation with this subset of food 
delivery program, as a part of our larger nutritional programs 
to improved outcomes in health, reduced costs, while we are 
protecting vulnerable persons. It is more than just us talking 
about how effective this is, this program that is being 
delivered, how it is meeting the mandate of Congress. Can it be 
viewed as a trial subset of a paradigm shift potentially, in 
the way in which all nutrition programs are potentially 
effective and then delivered? So can you speak to that?
    Have you run any studies that, again, try to look at this 
methodology and compare it to other methodologies of food 
distribution, measured by improved healthcare outcomes, reduced 
costs, as well as the proper protection for vulnerable persons?
    Mr. Concannon. Mr. Fortenberry, I understand your question. 
To my knowledge, I don't think there are any current studies 
that incorporate all of those elements. I am very mindful that 
we are about to award a healthy eating pilot that Congress 
authorized in the last farm bill that is intended to test 
creating incentives for individuals enrolled in the SNAP 
program to purchase more fruits and vegetables. And we are very 
interested in that.
    And actually, earlier this week I had a meeting with a 
coalition of organizations that are deeply committed to locally 
grown foods, but also encouraging low-income folks to have 
better access to farmers markets and healthier foods. And I 
know there are private sector initiatives that we are watching 
very closely through organizations like Wholesome Wave, where 
they are creating additional incentives for people to buy 
healthier foods.
    I am also mindful that one of the largest food chains in 
the country is tracking very carefully the purchases made under 
the SNAP program. And they indicate to me that purchases made 
by the SNAP enrollees aren't significantly different from the 
rest of us. And so I think that brings us back to the need to 
do a better job of both educating and nudging people in the 
direction of eating healthier.
    The Center for Nutrition Policy and Promotion is part of 
our mission area at USDA that I have responsibility for. And I 
was reminded months ago by the director that only two percent 
of Americans--unfortunately, only two percent of Americans--
fully adhere to the dietary guidelines for all Americans. And 
even though we intellectually may know we should eat better, 
not enough people really live up to that. And I think it is a 
challenge for us.
    We have lots of professional nutritionists and dieticians, 
but we are also beefing up our capacity with more behaviorists, 
more people who have some understanding. I am confident that 
the supermarket chains know what motivates us to pick up an 
item from one shelf versus the other. And we don't have that 
corresponding knowledge capacity on the Federal level. I think 
we need to develop more of that.
    And we are also, currently, very actively involved in the 
recommendations of the Dietary Guidelines, the next version 
which will come out late this year, 2010. And there are no 
surprises in it. It suggested all of us consume too much 
sodium, too much sugar, too much fat, not enough vegetables, 
not enough whole grains. There are the basic things. So we are 
very interested in trying to redirect people back to fewer 
processed foods and eating healthier.
    Mr. Fortenberry. Well, that is a commendable goal that we 
share as well. And part of the answer that you gave to my 
direct question actually touches upon some of the hearing 
topics that we have held in other formats. It strays a bit from 
our topic today, but I understand you are trying to give a 
holistic answer to the overview of this question.
    But I do think we have an opportunity here to think about 
what I proposed earlier; that if this program could be analyzed 
further to see if it meets that threefold test of, again, as a 
novel program, basically improving healthcare outcomes, 
reducing costs as compared to other delivery mechanisms, as 
well as protecting vulnerable persons, we should think through 
that more carefully.
    I think that, if you would, Mr. Secretary, I think that is 
a recommendation I would like to give you to take back to the 
Department. We may have a data set available here that, again, 
could give us evidence of how to shift some of the nutrition 
programs to meet that threefold test, which I think we all 
share.
    Let me ask you another quick question. If the tribe grows 
fruits and vegetables, or has livestock production, or grows 
other commodities, could these products actually become part of 
the Food Distribution Program, again, enhancing the option for 
locally grown foods and creating more vibrant local economies 
through agricultural entrepreneurship?
    Mr. Concannon. Thank you. I believe we have that authority 
now from a prior, more recent farm bill. Its access has been 
very limited to date, in part because of the challenges of if 
you have too much variation across the country in those 100+ 
foods, is it going to be a challenge to track? But it is a 
direction we want to go both as an agency, and we recognize, to 
your point, fresher local foods plus helping the economy, we do 
two goods things in the process.
    Mr. Fortenberry. Thank you very much. That is all I have, 
Mr. Chairman.
    The Chairman. Thank you very much. Now I would like to turn 
it over to the gentlewoman from Pennsylvania, Mrs. Dahlkemper.
    Mrs. Dahlkemper. Thank you very much, Mr. Chairman. Thank 
you Mr. Concannon. I want to follow up on Mr. Fortenberry a 
little bit here and ask you about the nutrition education 
portion of the FDPIR program, and maybe if you could tell me 
how that compares to SNAP recipients' nutrition education.
    Mr. Concannon. Yes. As I mentioned in my testimony, the 
program now expends about $1 million a year through the tribal 
organizations focused on nutrition education, with the FDPIR 
program specifically. And the tribal community that I recently 
visited actually had adapted a number of the MyPyramid graphics 
to a tribal, culturally, appropriate sort of applications.
    One was literally a tepee shape--each panel on it reflected 
one of those triangles currently on the MyPyramid. So they do 
education. In this case, they do education with children who 
appear to be overweight. They run a camp as part of their 
summer camp.
    Mrs. Dahlkemper. Mr. Concannon, can you compare that to me, 
for example, to a culturally specific group in an inner city, 
here in Washington? I guess I am just trying to find out if 
some of the improvements that we are seeing through this 
program have more to do with having a cohesive group culturally 
who you are able to work with on this nutrition education 
versus a SNAP program here in Washington, D.C., in which you 
have people from all over, different cultures, whether they are 
white, African American, Hispanic, from many other countries.
    And so I am just wondering if you think that there is any 
correlation with the fact that you have a very specific subset 
of people that you are dealing with.
    Mr. Concannon. I don't have any evidence that I am aware of 
or can point to saying that the nutrition education focused in 
these communities is more effective than SNAP education, 
generally. But I am aware that it is very much tailored across 
the country in these tribal communities.
    During the visit that I made, one of the educators was paid 
for through FDPIR education. But there was also a SNAP Ed 
representative there as well. And she said, ``I am paid for by 
SNAP Ed. I work with the schools in terms of their nutrition 
education as well as here.''
    So I guess what I would say is there was a much more 
cohesive, coordinated effort in the tribal community than we 
often see in urban areas, or in other parts of the country.
    Mrs. Dahlkemper. I think as we look forward, and if we are 
going to look into this and the effectiveness, that is 
obviously one of the factors.
    I wanted to ask you a little bit about the fruits and 
vegetables brought in, the supply chain on that, how difficult 
that is to get into these fairly remote areas; because, 
obviously, that is one of the issues why we have the program 
versus SNAP.
    And then is there any incentive for local production, and 
how that then is tied into the program? Because, obviously, I 
think that is very important in terms of the culture and the 
foods that the individuals are accustomed to eating.
    Mr. Concannon. Yes. To your first question, we rely upon 
the Department of Defense actually, the same contract that we 
piggyback on, so to speak, nationally, for distribution of 
fresh fruits and vegetables. And in this tribal visit I saw 
them firsthand. The tribal leadership told me they were 
demanding and making sure that the products they received met 
their standards. They referred to the first delivery not 
meeting their standards. They sent them back and they said, 
``We haven't had that problem since.'' So they were very 
positive about the fruits and vegetables on that question.
    And as far as the supply chain, we are about to make 
changes in how communities can order electronically. We are 
about to convert to a web-based ordering system that will be 
effective the 1st of July, a couple of weeks from now, that 
actually will allow communities to order today for delivery 
within the next few days. Right now in our system, they have to 
order weeks ahead on the fresh fruits and vegetables. So we are 
making changes that will be better and easier.
    Mrs. Dahlkemper. Do they all have the capability for that 
web-based ordering?
    Mr. Concannon. I believe they do. Yes.
    Mrs. Dahlkemper. That is good. Well, thank you very much. I 
appreciate it.
    And the other question, I have is about local production 
and if there are incentives to do any local production of food 
on the reservation?
    Mr. Concannon. There is authority for us to do that. I 
don't think we have done enough of it, to be perfectly frank 
with you. I think there is interest in the community. Wild 
rice, for example, as a purchase that is grown locally. And one 
of the challenges we have in that regard is balancing the 
average cost. Some of these locally produced items, like bison 
meat or wild rice, in this case, cost more.
    So in order to accommodate that, we would have to reduce 
other items in the package and we haven't figured out how to 
balance both goals. But we definitely want to encourage more 
local production, more local foods. And one of the areas we may 
be able to link that up with are the school-based programs.
    We are encouraging farmers to grow at scale. If they know 
they are going to get an order from the school system as well 
as from the USDA FNS, for example, then we think it is more 
likely we would be able to both produce sufficient quantities 
but also price. Price is an issue.
    Mrs. Dahlkemper. Can you do that scale in terms of across 
the whole program? You know, where one group could produce the 
bison, for example, and then that would be utilized throughout 
the whole system with that economy of scale that you are 
looking for?
    Mr. Concannon. My understanding on the bison, it is 
occasionally made available, but for the most part it is a 
price issue. And I don't know. I will have that question 
researched.
    Mrs. Dahlkemper. Thank you very much. I yield back.
    The Chairman. Thank you very much. I have some additional 
questions that I am going to ask, and then if any other 
individuals here would like to ask any additional questions 
they are also welcome.
    While I am happy to hear that FNS is moving forward with 
new technology advancement, like the Web-Based Supply Chain 
Management System, I do have some concerns as to how this 
transition will affect the FDPIR.
    As you are aware, many of the tribal communities and 
reservations that take part in FDPIR are extremely rural areas. 
Do these areas all currently possess broadband infrastructure 
necessary to effectively use the web-based ordering system?
    Mr. Concannon. I don't believe that they all have broadband 
at this point. But, I think they have it, in the program area 
access to the Web, to be able to request foods. And the intent, 
obviously, is to make it easier for the tribal communities. 
Rather than several weeks where they have to plan now, this 
will allow them on a quick turn-around, within a matter of 
days, to order these foods. So it is on hold, and there has 
been a lot of work done for this very time period we are in.
    The Chairman. Well, how do we plan on accommodating these 
tribes or these organizations that lack the appropriate 
Internet access technology?
    Mr. Concannon. The program directors, I am advised, are 
able to order even if they don't have a full range of current 
electronic capacity.
    The Chairman. I hope that we can continue to do that until 
everybody becomes modernized and has the kind of technology to 
make sure we provide the same kind of service.
    Let me ask as a follow-up question, I understand that one 
significant difference between SNAP and FDPIR is high 
administrative costs associated with food storage and 
transportation, that participating tribes and states must 
absorb in FDPIR. What has been the reception from states and 
tribal organizations with regards to the 2005 working group 
decision to change the administrative funding formula?
    Mr. Concannon. I know it has been negotiated. As I mention 
in my testimony, it is a portion, those administrative funds, 
about $37 million in the upcoming year, that are apportioned by 
the USDA regions and then apportioned to tribal organizations 
or states based on the number of FDPIR enrollees in that area. 
And, formulas are always challenging, but I believe it is 
working.
    The Chairman. Okay. And how does USDA coordinate the 
efforts of FDPIR to serve nutritional foods with the efforts of 
Indian Health Services and other agencies that look after the 
health of Native Americans?
    Mr. Concannon. Mr. Chairman, we have an advisory group that 
advises us on this. And that advisory group includes 
representatives from the Native American FDPIR providers. But 
it also includes a representative from the Centers for Disease 
Control and Prevention and also a representative from the 
Indian Health Service. So the intent is to reflect the best 
science, if you will, across the government.
    But I have also mentioned in my testimony that we are 
committed. The President has issued an Executive Order and the 
Secretary has made it unequivocally clear to us, the various 
mission areas within USDA, of his commitment to do tribal 
consultation on these matters. And that is an area that we 
haven't done as well as we should have in the past. We are in 
the process right now of devising a plan that extends across 
all the mission areas within USDA to do tribal consultation on 
matters such as the engagement with tribes in FDPIR.
    The Chairman. Okay, thank you. One final question: What 
steps can be taken, either by USDA or Congress, to improve the 
public image of the USDA's commodity foods?
    Mr. Concannon. I certainly believe that, as I mentioned, we 
suffer under a stigma of the past in that regard. I think 
better branding, really making it clear, in the same way we 
communicate changes and improvements to these tribal 
communities of the healthier package that it represents. I 
think a number of things can be done that way, certainly. But 
first, importantly, education to the affected communities that 
it is not your commodities program of old. It is a better 
program.
    The Chairman. Thank you. At this time I will turn it over 
to Mr. Fortenberry.
    Mr. Fortenberry. The only thing I would like to add is an 
answer to the Chairman's questions: Is it improving health care 
outcomes? Is it helping reduce costs? And is it protecting 
vulnerable persons? I think if we get an answer to all of those 
things, the appropriate benefit costs compared to other 
delivery systems, this will market itself and, again, perhaps 
become a type of paradigm shift in the way in which we think 
about delivering nutritional programs as social safety nets.
    Mr. Concannon. Thank you.
    The Chairman. With that, that concludes our questions of 
the Under Secretary, so thank you very much for your testimony 
this morning. Thank you.
    At this time, we would like to welcome our next panel. 
Thank you. We have Honorable Andy Joseph, Chairman of the 
Northwest Portland Area Indian Health Board, Tribal Council 
Member, Confederated Tribes of the Colville Reservation, and 
Chairman of the Health Committee of the Affiliated Tribe of 
Northwest Indians, Portland, Oregon.
    And then we have Norma Merriman, Group Leader, Cherokee 
Nation Human Services.
    Mr. Joseph, you may begin when you are ready.

         STATEMENT OF HON. ANDREW JOSEPH, Jr., COUNCIL
          MEMBER, CONFEDERATED TRIBES OF THE COLVILLE
          RESERVATION; CHAIRMAN, HEALTH SUBCOMMITTEE,
  AFFILIATED TRIBES OF NORTHWEST INDIANS; CHAIRMAN, NORTHWEST 
        PORTLAND AREA INDIAN HEALTH BOARD, PORTLAND, OR

    Mr. Joseph. My name is ``Badger'' in my language. I am a 
councilman from the Confederated Tribes of the Colville 
Reservation. As you stated my different titles, I also am an 
Executive Committee Member of the National Indian Health Board.
    Good morning, Chairman Baca and Ranking Member Fortenberry. 
Thank you for allowing me to give this testimony today. I am 
here on behalf of ATNI and represent the 57 tribes from the 
States of Alaska, California, Idaho, Montana, Nevada, Oregon, 
and Washington.
    The United States has a Federal trust responsibility that 
is based on numerous treaties and active Executive Orders. 
These legal instruments cede millions of acres of land to the 
U.S. in exchange for certain reserved rights and basic 
provisions that include programs such as the Food Distribution 
Program on Indian Reservations. The Food Distribution Program 
on Indian Reservations is very important for Indians and, in 
many cases, it is the sole source of food for Indian people 
that live on isolated Indian reservations.
    The fact is that Indian people live in desperate poverty 
and are among the poorest in the United States, 25 percent of 
Indians in the U.S. live at or below poverty level, and this 
rate is substantially higher on Indian reservations. As an 
example, for Indian reservations in South Dakota, as many as 44 
percent of Indians live below the poverty level. In the seven 
poorest counties in the U.S., five consist of Indians that make 
up the majority of the population.
    This poverty causes food insecurity and leads to other 
medical and public health issues, as well as affecting the 
learning ability of our Indian children when participating in 
the educational system.
    The drastic shift from help subsistence and traditional 
foods to foods high in sugar, starch, and fat created a 
healthcare crisis in Indian Country. High obesity and diabetes 
have resulted in a kind of cardiovascular disease, the number 
one killer in Indian Country.
    Because of these reasons, it is critical that this program 
be continued and improved and provide quality nutritional 
products. If this program is reduced or eliminated, it would 
have a devastating impact on the food security of Indian people 
throughout the United States.
    Our recommendations: One, for decades USDA's answer to 
tribal questions for the inclusion of healthier and more 
traditional native foods in the Food Distribution Program food 
packages has been that the program has insufficient funds. The 
FDPIR is a crucial program for Indian tribes, and it is 
imperative that Congress provide increased funding needed to 
improve the nutritional content of the food packages and offset 
rising transportation and maintenance costs.
    Two, tribes have always been concerned about efforts to 
establish a more equitable methodology for allocating the FDPIR 
administrative funds among the Independent Tribal Organizations 
and state agencies, with many voicing concerns about the 
potential funding cuts and some proposed provisions to protect 
against funding cuts. Again, it is critical that Congress 
provide adequate funding for the FDPIR, so that such 
administrative issues do not reduce the level of food and 
services provided to American Indians and Alaska Native people.
    Three, integration of health promotion and disease 
prevention, along with the nutritional counseling, should be 
incorporated with the FDPIR, along with increased funding to 
carry out these functions. This would assist to address the 
high rates of obesity, diabetes in tribal communities.
    Four, many tribes have requested and support including 
traditional food choices such as Indian corn, bison, smoked 
salmon, accounting for differences among tribes as permanent 
items in the food package.
    Thank you, Mr. Chairman and Members of the Committee. And I 
remain ready to answer any questions to provide additional 
information.
    One thing I would like to include, on my reservation, we 
did a survey, and 37 percent of our youth in the nine school 
districts on our reservation, 37 percent from K-8 were at the 
pre-diabetic stage. And you know, this program would help. The 
nutritionists really do a good job on helping teach our people 
how to use these foods also.
    [The prepared statement of Mr. Joseph follows:]

     Prepared Statement of Hon. Andrew Joseph, Jr., Council Member,
   Confederated Tribes of the Colville Reservation; Chairman, Health
    Subcommittee, Affiliated Tribes of Northwest Indians; Chairman,
       Northwest Portland Area Indian Health Board, Portland, OR

    Good morning, Chairman Baca, Ranking Member Fortenberry, and 
distinguished Members of the Committee. My name is Andrew Joseph, Jr., 
and I serve as a Tribal Council Member for the Confederated Tribes of 
the Colville Reservation. I also serve as the Chairman of the Northwest 
Portland Area Indian Health Board, which serves as the Health 
Subcommittee for the Affiliated Tribes of Northwest Indians. I am 
pleased to provide views on the ``Food Distribution Program on Indian 
Reservations'' on behalf of ATNI's Health Subcommittee and the 
Confederated Tribes of the Colville Reservation.

Background on ATNI
    Founded in 1953, ATNI represents 57 tribal governments from Alaska, 
California, Idaho, Montana, Nevada, Oregon, and Washington. As the 
Subcommittee may be aware, ATNI and its member tribes in the Pacific 
Northwest have been outspoken supporters about the manner in which the 
Federal Government administers its Federal trust responsibility and 
resources that emanate from that fact. ATNI has established its Health 
Subcommittee comprised of Northwest Tribal leaders, health directors, 
and technical staff to monitor health issues that affect Northwest 
Tribes including food nutrition programs. ATNI's support for advocacy 
is grounded in its commitment to maintaining the integrity of the 
Federal trust responsibility that is based upon the historical cession 
of millions of acres of ancestral lands by the tribes. Against this 
backdrop, ATNI appreciates this opportunity to provide its views on the 
Food Distribution Program on Indian Reservations (FDPIR).

Discussion on the FDPIR
    The Food Distribution Program on Indian Reservations (FDPIR) 
program is administered by the Food and Nutrition Service (FNS), an 
agency of the U.S. Department of Agriculture. The FDPIR is administered 
locally by either Indian Tribal Organizations (ITOs) or a state 
government agency. Currently, there are approximately 271 tribes 
receiving benefits under the FDPIR through 99 ITOs and five state 
agencies. The U.S. Department of Agriculture (USDA) purchases and 
delivers commodities to the ITOs or state agencies based on their 
selection from a list of available foods. These administering agencies 
store and distribute the food, determine applicant eligibility, and 
provide nutrition education to recipients. USDA provides the 
administering agencies with funds for program administrative costs.
    For Indian Country, the FDPIR is more than a supplemental program, 
in many cases it is the sole source of food for low income American 
Indian and Alaska Natives (AI/AN) people living on or near 
geographically isolated reservations. According to census data, 
approximately 1.5% of the United States population is comprised of AI/
AN people. Poverty disproportionately affects AI/AN people, with 
approximately 25% living with an income at or below poverty level. The 
median income of AI/AN in the U.S. is just over $30,000, relative to 
the median income of $41,000 for all Americans. The rate of poverty is 
substantially higher on Indian reservations. As an example, on Indian 
reservations in South Dakota as many as 44% of AI/AN people live below 
the poverty level. In fact, in the seven poorest counties in the 
nation, five consist of AI/AN people that make up the majority of the 
population. This stands to reason that AI/AN people are affected by 
poverty and food insecurity at a greater rate than most in America. The 
consequence of these poor economic standards is that 43% of AI/AN 
children under the age of 5 are also living in poverty. This poverty 
causes food insecurity that leads to other medical and public health 
issues, as well as affects the learning ability of our Indian children 
when participating in the educational system.
    Historically, food packages have included what remains of Federal 
commodity programs, such as bleached flour, sugar, potatoes, corn, and 
butter. The immediate and drastic shift from healthy subsistence and 
traditional foods to foods high in sugar, starch and fat created an 
epidemic of obesity and diabetes across Indian Country. Overall, AI/ANs 
have the highest age-adjusted prevalence (percent) of diabetes among 
all U.S. racial and ethnic groups. It has been documented that over 16% 
of all AI/AN adults have diabetes and that AI/AN mortality from 
diabetes is 4.3 times higher than the general U.S. population. Even 
though Type-2 diabetes used to be rare in individuals under the age of 
40, the prevalence (percent) of diabetes among AI/ANs aged 25-34 years 
increased 112% from 1994-2004. Because of this it is imperative that 
food assistance to Indian tribes be improved to deliver healthier 
alternatives to improve health for tribal members receiving foods from 
FDPIR.
    The FDPIR is a critical program that assists to meet the 
nutritional needs of many AI/AN people. While access to grocery stores 
in many parts of the country have improved, the remote distances and 
the lack of reliable and economical transportation for most AI/AN 
people continues to be a barrier to accessing grocery stores and 
nutritional food sources. In most instances if the FDPIR were to be 
reduced or eliminated it would have a devastating impact on the food 
security of large numbers of eligible families residing on Indian 
reservations and risk starvation.
Recommendations to Improve the FDPIR

    1. Given the importance of this program to Indian Country, tribal 
        leaders have long stressed the importance of following 
        appropriate government-to-government protocols and respecting 
        existing treaty agreements when making changes to FDPIR.

    2. For decades the USDA's answer to Tribal requests for the 
        inclusion of healthier and more traditional Native foods in the 
        FDPIR food packages has been that the program has insufficient 
        funds. The FDPIR is a crucial program for Indian tribes, and it 
        is imperative that Congress provide increased funding needed to 
        improve the nutrition content of food packages and offset 
        rising transportation and maintenance costs.

    3. Many tribes have suggested the need for improvements in the 
        quality of the food package to ensure that it meets dietary 
        guidelines and for improvements in delivery to ensure that food 
        products are distributed before their expiration dates.

    4. Tribes have always been concerned about efforts to establish a 
        more equitable methodology for allocating FDPIR administrative 
        funds among the Independent Tribal Organizations (ITO) and 
        state agencies, with many voicing concerns about potential 
        funding cuts and some proposing provisions to protect against 
        funding cuts. Again, it is critical that Congress provide 
        adequate funding for the FDPIR so that such administrative 
        issues do not reduce the level of food and services provided to 
        AI/AN people.

    5. Integration of health promotion and disease prevention along 
        with nutritional counseling should be incorporated with the 
        FDPIR along with increased funding to carry-out these 
        functions. This will assist to address the high rates of 
        obesity and diabetes in Tribal communities.

    6. Many tribes have requested and support including traditional 
        food choices such as Indian corn, bison, and smoked salmon 
        (etc., accounting for differences among tribes) as permanent 
        items in the food package.

Conclusion
    Given the improved state of health most Americans are benefiting 
from, the lingering health disparity among AI/ANs is troubling. Food 
insecurity, poverty and health problems continue to disproportionately 
affect AI/AN people. Food assistance programs continue to be a key 
factor in building healthy and economically strong communities. 
Strengthening Federal nutrition programs requires enhancing and not 
reducing benefits.
    Thank you, Mr. Chairman and Members of the Committee, and I remain 
ready to answer any questions or provide additional information you may 
require.

    The Chairman. Thank you very much, Mr. Chairman. At this 
time I would like to call on Norma Merriman for her testimony. 
You may begin.

           STATEMENT OF NORMA MERRIMAN, GROUP LEADER,
         CHEROKEE NATION HUMAN SERVICES, TAHLEQUAH, OK;
         ACCOMPANIED BY JERRY SNELL, DIRECTOR OF FAMILY
          ASSISTANCE; AND BUD SQUIRREL, MANAGER, FOOD
                      DISTRIBUTION PROGRAM

    Ms. Merriman. Good morning, Chairman Baca, Ranking Member 
Fortenberry, and Members of the Committee. Thank you for 
allowing us to be here today. I bring the thanks of the 
Cherokee Nation Principal Chief Chad Smith for convening this 
hearing on a service program that is of vital importance to 
Cherokee people and Indian Country as a whole, as Mr. Joseph 
has so eloquently described.
    I am Norma Merriman. I am the Group Leader for Cherokee 
Nation Human Services which is a social service branch of our 
tribe. I am accompanied today by Mr. Jerry Snell, Director of 
our Family Assistance Programs, and Mr. Bud Squirrel, who is 
the Food Distribution Manager for our tribe.
    The Cherokee Nation appreciates the opportunity to submit 
testimony regarding the Food Distribution Program on Indian 
Reservations. I would like to take just a moment to give you an 
overview of the Cherokee Nation Food Distribution Program. Our 
program consists of 52 members in staff, including store 
managers, clerks, warehouse workers, inventory, data personnel, 
nutrition aids, and truck drivers.
    The Cherokee Nation currently operates five food 
distribution centers at strategic locations throughout the 
Nation's 14 county jurisdiction. In addition to these strategic 
hubs, the Nation also operates seven tailgate sites where food 
is delivered to the most remote communities on a monthly basis. 
At this time, our Food Distribution Program currently serves 
approximately 10,000 participants every month.
    Chairman Baca, you have received our written testimony 
prior to these proceedings, and I would request that our 
testimony be entered into the record of the hearing. And to 
that end, I would simply summarize our statements this morning.
    In summary, the Cherokee Nation supports the following 
propositions: Proposition A, excluding household funds held in 
educational savings accounts; Proposition B, clarification 
regarding the resource exclusion for qualified retirement 
accounts; Proposition C, clarifying the application of SNAP net 
income standards to FDPIR; D, excluding combat pay.
    Mr. Chairman, it is well recognized that, historically, 
Native Americans have the highest record of service per capita 
when compared to any other ethnic group in the United States in 
our military services. So aligning FDPIR and SNAP provisions 
regarding combat pay is simply a necessity.
    Additionally, we want to emphasize our strong support for 
parity between SNAP and FDPIR funding. We also recommend the 
following actions be taken under consideration by this 
Committee.
    First, a tribal liaison be named to enhance communication 
between Food and Nutrition Services and the FDPIR National 
Association. This action will be a major step to assure FDPIR 
representation is at the table when SNAP and FDPIR concerns are 
being discussed and negotiated. I think you, Chairman Baca, 
when you talked about the squeaky wheel, this would allow us to 
squeak a little better if we could do this.
    Second, consideration should be given to increasing 
cultural foods in the food package, such as salmon, wild rice, 
buffalo and blue corn, to name a few.
    Third, that Food and Nutrition Services consider allowing 
tribes to carry over, at a minimum, five percent of their 
annual FDPIR administrative appropriations, which would be very 
helpful, I know, to our tribe.
    In conclusion, we would like to acknowledge the initiative 
on the part of the Committee to provide low-fat and low-sodium 
food choices in the FDPIR food packages. These additions 
address the epidemic of diabetes, hypertension, and heart 
disease in the Native population by providing healthy choices.
    Once again, thank you for convening this hearing and for 
allowing the Cherokee Nation to comment on these important 
issues. Thank you.
    [The prepared statement of Ms. Merriman follows:]

  Prepared Statement of Norma Merriman, Group Leader, Cherokee Nation 
                     Human Services, Tahlequah, OK

    Chairman Baca, Ranking Member Fortenberry, Members of the 
Committee, I bring the thanks of Cherokee Nation Principal Chief Chad 
Smith for convening this hearing on a service program that is of vital 
importance to Cherokee people and Indian Country as a whole. My name is 
Norma Merriman and I am the Group Leader for Cherokee Nation Human 
Services. I am accompanied by Jerry Snell, Director of Family 
Assistance, and Bud Squirrel, Food Distribution Manager. The Cherokee 
Nation appreciates the opportunity to submit testimony regarding the 
Food Distribution Program on Indian Reservations (FDPIR).
Overview of Cherokee Nation Food Distribution Program
    The Cherokee Nation Food Distribution Program consists of 52 staff 
members including store managers, clerks, warehouse workers, inventory 
and data personnel, nutritionists and truck drivers. The Cherokee 
Nation currently operates five food distribution centers (FDCs) at 
strategic locations throughout the Nation's 14 county jurisdiction. In 
addition to these strategic ``hubs'', the Nation also operates seven 
tailgate sites where food is delivered to the most remote communities 
on a monthly basis.
    The Food Distribution Program currently serves approximately 10,000 
participants every month and has been one of the largest, most 
successful FDPIR programs in Indian Country. The Cherokee Nation was 
the first FDPIR to implement the ``grocery store'' concept where 
clients are allowed to shop at their leisure in a retail environment. 
Our patrons enjoy the convenience of choosing their products like 
everybody else instead of receiving boxes of food from the back of a 
truck.
    The Cherokee Nation currently has one additional FDC in planning 
that will be built and fully operational in 2011. The Nation also has a 
long-term plan to develop three more strategically located FDCs so that 
all clients in the 14 county jurisdiction are no more than thirty 
minutes away from a distribution center. This will eliminate the need 
for tailgate sites altogether.

Recommendations for Proposed Rule Changes
    The Cherokee Nation appreciates the opportunity to comment on the 
following proposed rule changes governing the FDPIR. I would like to 
preface our comments by generally expressing our support for 
streamlining the regulations governing the Supplemental Nutrition 
Assistance Program (SNAP) and the FDPIR. In April 2009, USDA increased 
the SNAP benefits for their participants an average of $20 per client 
by using funds provided by the American Recovery and Reinvestment Act 
of 2009. Unfortunately, there was not a corresponding pro rata increase 
for FDPIR participants. The Cherokee Nation is enthused by this hearing 
and the proposed rule changes as they present a great opportunity to 
improve parity of these two programs and allow greater access to 
nutrition assistance for Indian Country.

Proposition A: Excluding Household Funds Held in Education Savings 
        Accounts from Consideration as a Resource
    Education has always been a major priority to the Cherokee Nation. 
We have a vested interest in the education of our citizens as evidenced 
by the many scholars and leaders that adorn our history. The Nation is 
very supportive of this measure as it would encourage the higher 
education of our citizens and provide greater ability for those 
citizens in impoverished and needy communities to pursue greater levels 
of self-reliance.

Proposition B: Clarification Regarding the Resource Exclusion for 
        Qualified Retirement Accounts
    The Nation is supportive of provisions protecting the retirement 
accounts of our citizens and ensuring that those funds are not 
interpreted to be a detriment to their access to the FDPIR. In addition 
to improving access, allowing resource exclusion for properly setup and 
administered retirement accounts will undoubtedly encourage our 
citizens to save for retirement regardless of their financial status 
and participation in the FDPIR.

Proposition C: Clarifying the Application of SNAP Net Income Standards 
        to FDPIR
    The Nation supports equitable consideration for both SNAP and 
FDPIR, and is supportive of the provision to consider net income, as 
opposed to gross income, as the qualifying standard to participate in 
the FDPIR. The Nation appreciates this clarification as it will provide 
consideration for pre-tax deductions from salaries and reduce confusion 
around standards of enrollment in the program. Similar to proposition 
B, this proposal will increase the willingness of our citizens to 
establish deductions in their payroll to provide for their retirement.
Proposition D: Excluding Combat Pay from Income
    Aligning FDPIR and SNAP provisions regarding combat pay is simply a 
necessity. Some of our Cherokee service members come from impoverished 
communities and while they are compensated for their service overseas; 
their pay is simply not on par with the risks they face during 
deployment. The Cherokee Nation appreciates this consideration for 
military personnel as it will help to provide assistance to military 
families while their loved ones serve abroad.

Proposition E: Amending the Dependent Care Deduction
    Allowing participants to claim the full cost of their dependent 
care deductions would be a welcome benefit. The nature and intent of 
the FDPIR and the Cherokee Nation Food Distribution Program is 
primarily focused on the care and protection of Indian families. 
Naturally there is a strong emphasis on nutrition and healthy rearing 
of our Indian children. Removing regulatory language focused on 
dependent care would be a welcome adjustment to the current policy and 
this provision would inevitably improve the health and well-being of 
many of our Nation's children.
    Mr. Chairman, once again I thank you for convening this hearing and 
allowing the Cherokee Nation to express comment on a highly successful 
program that helps to improve the lives of Indian people on a daily 
basis. The Cherokee Nation is committed to FDPIR and appreciates your 
interest and enthusiasm for the program. We are dedicated to elevating 
our indigent and impoverished communities so that they may adequately 
pursue our declaration of designed purpose to become a happy, healthy 
Nation through our initiatives in jobs, language and community. The 
FDPIR is an essential element to improving the wellness of our most 
needy population and we appreciate your regard for the importance of 
this issue.
    This concludes my testimony. Should you require further information 
on any of the Cherokee Nation's programs and services, I invite you to 
contact the Cherokee Nation Washington Office, [Redacted].

    The Chairman. Thank you very much for your testimony.
    First of all, USDA is seeking public comment on the 
proposed rule, regarding the counting of education accounts, 
retirement accounts, and combat pay. The comment period is open 
until June 28th, next week. Comments should be submitted at the 
USDA and FNS. So with that, I would like to thank you.
    This proposed rule that should become final later this year 
will make all of the adjustments in reference to the proposals 
that you mentioned. These changes make FDPIR in line with the 
SNAP eligibility, so hopefully that will be done.
    I will begin with some questions. Chairman Joseph, you 
mentioned that the poverty level in South Dakota is 44 percent 
and the national poverty level is about 25 percent. When you 
average it out, the poverty level amongst the Food Distribution 
Program on Indian Reservation is probably, if you average them 
out, it is about 35, 30 percent overall poverty level, below 
poverty level? Which means almost everyone is eligible, 
basically, within that area, yet, how many are actually even 
taking advantage of the FDPIR or SNAP program within Indian 
Reservations?
    And Mr. Fortenberry has continued to be a strong advocate 
in the area of obesity and the cost to our consumers and 
others; and if we can provide adequate nutrition and food, then 
we are reducing our costs overall. Ultimately, we end up paying 
in the long run because of either heart conditions, diabetes, 
the high cost of healthcare.
    So on one hand we want to make sure that, as Mr. 
Fortenberry says, on being cost effective so that in the long 
run, it is a savings.
    But let me ask you this question, Mr. Joseph. According to 
the experts at the Congressional Research Service, the average 
person enrolled in the FDPIR receives about $55 per month in 
commodity assistance. From your experience working with various 
tribes in the Northwest, is this an adequate amount of food 
assistance?
    Mr. Joseph. I would say that it isn't. You know, a lot of 
our people are living in poverty. You know, when I was a young 
man and I was raising my three younger children, being able to 
help them grow up, a lot of times we would run short on some of 
the commodities, foods that we would be getting from our Food 
Distribution Program, and we had to rely on some of our own 
foods that we gather. We still have some places where we gather 
our traditional foods, our roots and our berries, and we would 
have to really rely on those as much as we could.
    Currently our tribe is working with the conservation 
program to set aside some of our traditional lands that we 
gather some of these foods, our roots and berries. Before it 
was moved to the reservation, a lot of these sites where our 
people were actually from, we were moved onto the reservations 
and there are not big food sources out there that grow 
naturally, the different bitter roots and the different berries 
that we gather. Some of our choice hunting grounds were taken.
    Earlier, in the testimony I heard, the cost for including 
bison and salmon, different things like that. It is a little 
more expensive. But to me it would save more lives because it 
is more natural to our physical body and what we intake. And 
that would save a lot more lives.
    Bison, they are a leaner animal and chemically our bodies 
take it better. The same with the salmon. Our people lived off 
of salmon in the Northwest, and it is something that we really 
need. The gardens too, if we work with, through the EQIP 
program, if there could be more funding in EQIP for equipment 
to grow our own gardens, I think that would really help.
    The Chairman. Thank you. In your testimony you mention, Mr. 
Chairman, the need of improvement of deliveries in the FDPIR to 
ensure that food products are distributed before their 
expiration dates. In your experience, is it common for food 
that has expired to be delivered to tribal communities through 
FDPIR? If this is indeed the case, it is a shameful failure on 
the part of the Federal Government. Can you respond to that?
    Mr. Joseph. Well, my tribe is a timber tribe, and right now 
we had to lay off a lot of our people. And, just the 
transportation to go out to go to the food distribution site to 
pick up the food is a hardship.
    And, if it was funded more where some of these foods could 
be distributed out to our members, some of our elders that use 
the program that are raising their children and grandchildren, 
can't afford to come in and pick up their supply like they 
normally would. So I guess if that part could be used to help 
distribute the foods, it probably wouldn't be expiring.
    The Chairman. Ms. Merriman, can you please give us some 
additional details as to how the Cherokee developed the system 
and how it operates for the average Cherokee and FDPIR 
recipients that integrate the innovative grocery concept that 
you mentioned in your testimony?
    Ms. Merriman. We do a couple of things, and I hope I am 
answering your question correctly. One of the things that we do 
monthly is that we have nutrition aids who assist in providing 
nutritional recipes using the food distribution foods, 
specifically to make tasty meals and nutritious meals, to show 
people how they can be used and encourage them to eat in a more 
healthy way. They even make samples so that when the people 
come in to get their food packages, there will be samples there 
so it is not just merely a recipe laying out, because some of 
us might not pick that up.
    We also do a monthly calendar showing when certain things 
will be happening in the program. And also there are 
nutritional recipes on that calendar.
    I would like to ask that Mr. Bud Squirrel, who operates the 
daily operation of our food distribution, join me if that is 
all right with you. I believe he can be more specific than I, 
since I am kind of the boss and he does the everyday stuff.
    The Chairman. All right.
    Mr. Squirrel. Thank you, Mr. Chairman. Approximately in 
1980 the Cherokee Nation did a 25 year plan on how we were 
going to set up our deliveries of the different services that 
we offered, and food was included. Health and other social 
services was included. And we picked out certain communities in 
the Cherokee Nation area such as Bonita, Nowata--I know you are 
not familiar with these places but just to name a few--
Sallisaw, Stilwell, that were geographically located where 
there was a density of population that would justify building 
something there that is kind of a one-stop service center for 
the different services that we offered.
    And that is how this concept came into being, to develop a 
grocery store where they could come in and not have to drive 
more than 30 minutes or 30 miles. We developed 60 mile radiuses 
with the center being in the middle of this territory. And we 
currently have five of these. We would like to have eight. We 
are going to build a sixth one this fall which will be in 
operation in 2011, which will leave us a couple of centers 
short. And these are in conjunction with our health centers and 
other social service provision centers.
    So that is where the concept got started. And what we do is 
we bring in the clients to an area where they fill out their 
applications, make sure they are eligible, certify them. Then 
we give them a list of the items, the foods that they are 
eligible for--we currently have 79 items that we provide--and 
give them a list of what they are eligible for. Then they just 
go into the store, the adjoining store, and get them a cart or 
two--if they are a big family they will need two or three 
carts--and just go down the aisles. This list is kind of 
configured so the aisle of the first four items are on aisle 
one, the next items, they are all coordinated where you just go 
up and down these aisles. And then you will check out on your 
way out.
    And we have computerized scanning systems also. Instead of 
doing it on a manual basis, writing down everything they decide 
to take, they are checked out, they are scanned when they go 
out the door. So that is how the stores, the grocery store 
concept was developed about 30 years ago.
    The Chairman. In some of these areas it becomes so 
difficult for many of these individuals to go to these stores 
to get what they need. What is being done to make sure that we 
reach some of these areas where they don't have the 
transportation? And what can be done in terms of the delivery 
to make sure that nutrition is also provided to some of these 
families that don't have a mode of transportation and need the 
services, or, if weather conditions impact receiving the kind 
of nutrition that they need.
    Mr. Squirrel. We utilize what we call Community Health 
Representatives, CHR program, that is funded through the Human 
Health Service. There may be a community transportation system 
that goes through that area and brings them to our centers to 
pick up their food on a monthly basis. Or as a last resort, we 
have a system where they can call in to us and tell us that 
there is no way, ``I don't have any friends or family that can 
take me either, I can't drive, I am almost bedridden.'' And we 
will make a list of these and wait until the last week of the 
month when we are not so busy and we can spare the staff. We 
send them out to do home deliveries to these people. So they 
can get on the list and we do home deliveries.
    The Chairman. But that is waiting towards the end. When are 
they eligible to receive it? Is it the beginning of the month? 
Are they waiting a week or 2? Are they trying to survive on 
what they have, until someone goes there?
    Mr. Squirrel. That is correct; they get it once a month. We 
try to make sure they get it every 4 weeks. Once we get them on 
the schedule, they usually stay on the schedule and then we try 
to do it every 4 weeks. So it is just 4 weeks, or once a month. 
We don't make them wait 50 days. So it is a regular interval. 
There is a 30-31 day interval in between.
    The Chairman. Ms. Merriman, in your experience working with 
Human Services with the Cherokee Nation, do people frequently 
switch between SNAP and FDPIR? If so, how does that complicate 
administering the program?
    Ms. Merriman. They do switch. And I want to echo what Mr. 
Concannon said earlier: that when we had this disparity arise 
between SNAP and FDPIR's first funding recently, people did 
switch. And of course any time people switch, it is more 
difficult on staff and on that person because they have to do 
more paperwork, they have to go to a different location. As far 
as what the volume is of people switching back and forth, I 
would probably have to ask Mr. Squirrel to respond to that, but 
we have seen that recently.
    Mr. Squirrel. That volume has not been drastic, but it has 
been noticeable. I would think out of the 10,000 people that we 
serve a month, probably a couple of hundred a month switched 
over. And we can tell it in our monthly totals, the total 
number of clients served every month when we do a final count. 
So they have impacted our program noticeably.
    The Chairman. A question to any one of you three up there 
now. In your opinion, what effects is the nutritional, 
educational component of FDPIR? Do we need to do more? What is 
the level of awareness? What else can be done? Do we need to do 
it differently? If so, how? Do we need to utilize other 
individuals in assuring that the FDPIR qualified people are 
aware of SNAP or other programs? In your opinion, do you feel 
that it is effective, the educational program component, or do 
we need to do something else?
    Mr. Joseph. I would say that it is really important. Our 
nutritionists do these trainings where they teach our young 
parents. In Indian Country, we have some really young parents 
that need to learn how to prepare these meals. As a former 
boarding school student, we weren't really raised in the home 
where we could watch our mothers do the cooking.
    So to me, it is really important that that kind of training 
come back into our families. And as they are young mothers or 
fathers, some of them are single parents, they might be able to 
pass this training on to their children. And that would be a 
real benefit. And to me I think that it would save a lot of our 
people's lives and make us live a lot longer. Thank you.
    Mr. Squirrel. If I may, sir. I think the initiative is on 
the right track. All of the things that they mention, the 
demonstrations, the recipes that we do and the screenings that 
we do. The only thing that I might suggest, with the money that 
we get at the Cherokee Nation with the amount of people that we 
serve per month, we have only two nutrition aides on staff. 
Next year we hope to be able to get at least one more. We call 
them nutrition aides. They are not certified, they are not 
college educated. They are just their own peers that have been 
taught to go out and talk to their neighbors, sometimes their 
own families, on how to wisely use these foods as far as 
nutritional value and benefit is concerned.
    So, I think there is not enough. We are putting a Band-Aid 
on a hemorrhage. We need something that is a little bit more 
effective. And to do that, maybe to double that $1 million 
nationwide to $2 million, something like that; which probably 
is insignificant money when it comes to where I am sitting 
today, but that would help us to do twice as much from what I 
can tell. Thank you.
    The Chairman. Okay. Thank you very much.
    Mr. Joseph. Could I add one more thing to that? I believe 
it would be saving the government a whole lot of money from 
doing amputations for diabetics and for having to have our 
people doing open-heart surgeries, which costs the government a 
whole lot more money, nationally, for our people.
    And, as you know, the Indian Health Service is only funded 
at about 50 percent of what its real need is, based on a 
comparison of other Federal programs. A Federal penitentiary 
inmate receives twice the amount of healthcare per capita than 
a Native American.
    Anyway, we are all here to try to save the government a lot 
of tax money, and prevention would be a big part of that. 
Nutrition is a big part of the overall health plan. Thank you.
    The Chairman. Thank you very much for your testimony and 
response to the questions. And this is what we are all trying 
to do right now, is look at preventive measures and also look 
at services that need to be provided to promote longer and 
healthier lives, along with how we can reduce our cost, and 
improve the quality of life for many of our youth and our 
adults, as well.
    And that is what Mr. Fortenberry has constantly been 
striving and pushing for; the effects it has and the costs. But 
if we do more preventive care, we actually end up reducing our 
costs in the long run.
    So thank you very much, Mr. Chairman. At this time I will 
turn it over to our Ranking Member, Mr. Fortenberry.
    Mr. Fortenberry. Mr. Chairman, your comments were very 
germane following up on what Mr. Joseph was speaking of, which 
is part of the core issue here. When we think about nutritional 
programs, we are clearly trying to protect persons who are in a 
vulnerable or fragile position.
    But to think about the larger policy implications on health 
care, on local economies, on the preservation of, as you 
suggested, traditional tribal recipes in a traditional culture, 
is I think an appropriate finding for this hearing. I think 
that Committee hearings should be about looking at difficulties 
and solving problems and the technical aspects of delivery, and 
a lot of the things we talked about today.
    But in this regard, you as tribal leaders, potentially, can 
be very, very helpful in terms of leading this program's effect 
on multiple-policy objectives.
    Mr. Joseph, you also talked about the difficulties, given 
that reservation land is not often--is sometimes not the same 
land that people originally arranged to find their food 
sources, and so it would be a little bit difficult to fully 
integrate the traditional or original Native American diet into 
a food distribution program.
    With that said, however, if there is a willingness on your 
part to think creatively, and the Under Secretary had mentioned 
earlier, the very eager openness in the Department to the idea 
of combining policy objectives to ensure that, when possible, 
local food production is integrated into food distribution so 
that we are achieving, again, a winner on a lot of different 
levels, creating more local economic opportunity, increasing 
nutritional delivery of foods in a most convenient and 
efficient manner, and again protecting vulnerable persons with 
the core part of the program.
    So I would encourage you as well to--although this hearing, 
this is a bit beyond the parameters of what we originally 
intended for the hearing, I think this is an opportune time to 
think creatively. We all have the problem; we are all in 
government and tend to stovepipe programs and define them by 
narrow outcomes, but how they can be more fully integrated to 
meet these multiple objectives of protection of people, 
increased healthcare outcomes and a strengthening of local 
economic opportunities.
    So I just want to leave that comment with you all, and I 
appreciate your testimony today. I am glad the Under Secretary 
is still here to hear this. And he did indicate earlier an 
eagerness on the Department to look at meeting those 
objectives, and potentially it is possible through this 
program. Thank you.
    The Chairman. Thank you. Mrs. Lummis from Wyoming.
    Mrs. Lummis. Thank you, Mr. Chairman. I would like to 
expand a little more, if I could, with all three of you about 
the FDPIR versus SNAP in terms of why a clientele would choose 
FDPIR over SNAP when the Food Distribution Program provides 
fewer benefits than SNAP. Could you enlighten me about why that 
occurs, anyone?
    Mr. Joseph. The Food Distribution Program, the way it is 
packaged, probably would have a little longer shelf life. When 
I used to use the program with my family, sometimes we could 
get certain types of foods in one program. It would be like, 
kind of like a storage for when you really needed that type of 
food. And then you switch, I guess, over to the SNAP.
    Our people probably would want to have a little more choice 
on what their intake is. My kids really loved the cheese, and 
they craved that stuff. But, in the store system, there might 
be a different type of cheese that they would use for different 
ingredients. I think it is a combination of just the choice and 
having something a little bit different would be my guess.
    Mrs. Lummis. Thank you.
    Mr. Squirrel. On my reservations, if I may, on some 
reservations it is the only option, realistically, insofar as 
your decent grocery store may be 120 miles away. Economically 
it is the main option, the only option on the reservation 
because of the remoteness.
    Another thing that we have already established is that it 
is nutritionally better. If you recall, the scores were like 81 
for the foods that we have in our program and SNAP got a 52, I 
believe. I have read that a few times before, and I proudly 
mention that to anybody that will listen to me.
    The other thing is Native Americans identify with this 
program, they grew up with it. I remember it when I was a 
little kid. I was one of the people that was too remote or too 
poor to even afford to go and get commodities because it was 30 
miles away. And back then they only had four, five or six 
things that you could pick up. But, we didn't have a car. My 
mother wouldn't drive, couldn't drive, and my father was off 
working wherever he could. So we didn't have a way to go over 
there to get it. So we were too poor to get commodities. Now, 
what does that tell you?
    Another thing is it is a social get-together nowadays for 
people. I can hear elderly, ``I will see you next month on the 
23rd,'' whenever they leave our stores. They get to see family 
and friends. We get 50 to 140, 150 families a month come 
through these stores. And it is kind of a social get-together 
for them. They look forward to it. It is a one-stop shopping 
for them. They come and get their groceries, they go to Wal-
Mart to get other things they need, then they go stop by the 
clinic or whatever. So they try to plan it all in 1 day so it 
only costs them $12.50 for gas, instead of going 4 days and 
paying $50 a month for gas. So that is the way it goes at the 
Cherokee Nation.
    Ms. Merriman. I am going to talk about the other side, 
about people who may choose SNAP over FDPIR. Young people don't 
cook like our families used to. And if you use FDPIR, you would 
need to cook for a lot of the items in the food package, which 
we know that usually means it is more nutritious and well 
balanced, especially if they are cooking the food in the food 
package. So I think that is one thing with maybe some of our 
younger families.
    Also, I think their children may want the tastier, which 
are usually fattier and more sugary, saltier-type things that 
they would get under the SNAP program. That is not a good 
choice, but that is what some people choose, want, or desire.
    I think there is still some misinformation. I think this 
was mentioned a little earlier, but maybe not in this aspect. 
When the program first started, it was not unusual if you were 
driving on some of the back roads to see some of the items that 
people were given without choice dumped, because they would 
become wormy or they just could not use that much meal or 
flour. And, you are not supposed to give that to anybody else 
or sell it. So it is much different now. I think still there 
are people who believe that that is still the way, that you 
don't have a choice.
    And I know Mr. Squirrel in our program has been in the 
trenches for a long time and fought for choice and for labeling 
of food so that they don't look like mystery meat or, really 
pale some kind of labels; that now they are more lively. Tony 
the Tiger is there and other things.
    I think there are some of those things that would have 
people going to SNAP versus FDPIR. We always try to encourage 
people in our other social service programs to try FDPIR 
because we know that it is going to be healthier for them.
    Mr. Joseph. I might add one more thing. In food 
distribution some of our people would get the buffalo burger, 
and we don't have that in our stores. So to me, a lot of them 
would probably be wanting to get as much of the buffalo as they 
can, to have something different; then they might switch over 
to SNAP, to get something else versus the buffalo. But, they 
really crave that meat because it is lower in fat and it is 
actually healthier for our bodies.
    Mrs. Lummis. Thank you, Mr. Chairman. I think in a year and 
a half in Congress, those are the most practical responses to 
any question I have ever asked, so thank you. It is a pleasure 
listening to you. I yield back.
    The Chairman. Thank you very much. And we want to thank all 
of you for your testimony. And I appreciate Chairman Joseph, 
when you talked about your family and others. I know what it 
was like because my family also received the commodities. And I 
remember us having to go to get them when I was in New Mexico 
to get commodities during that period of time as a young child. 
And because of the lack of education that we had, we knew that 
the commodities that we received versus SNAP--and that is a 
problem that we have even now, is to begin to educate. We know 
there is a better opportunity, because now you can eat a lot 
healthier.
    At that point we knew what we were going to get, so we 
always made sure that we had a lot of tortillas and frijoles 
and some of the other good food that I loved eating.
    I want to ask one final question, and any one of the three 
of you can answer. Do you think that FDPIR eligibility 
guidelines should take into consideration some of the expenses 
such as heating costs, electric bills, medical expenses that 
are not currently allowable deductions, and if so, can you 
elaborate on that?
    Mr. Joseph. I live up in the Northwest and the temperatures 
get really cold and learned through e-mails that the area in 
the Dakotas had the severe weather this past year, even over on 
the coast, on the coastline we have had some severe weather. 
And so the heating and transportation costs are really extreme. 
And when all of a sudden you get laid off from work, like 
probably around a thousand of the members of my tribe, due to 
the housing market experienced a real hardship. And like I 
said, some of our elders trying to raise grandchildren on a 
fixed income, they are really low income, and heating expenses, 
and just trying to get the kids to school and everything is a 
real hardship. And if there could be some guidelines to waive 
some of those for some of our people it would help bring up our 
children a lot healthier. And to me I think that should really 
be looked at. Thank you.
    Ms. Merriman. I would concur. We all know that the cost of 
utilities and medical care are very high and not going down. So 
I believe there really should be some consideration in looking 
at those issues. And I appreciate you bringing those up.
    I don't know if Mr. Squirrel wants to add to that, but I 
know we see that all the time.
    Mr. Squirrel. I think we should support it. The only thing 
I would add is I am a person that believes very strongly in 
equity, parity. So I would suggest that these be considered for 
a SNAP program, any program that is funded by Agriculture to be 
considered for SNAP or WIC, or any of the programs that are 
administered by the Department of Agriculture. Thank you.
    The Chairman. Thank you. This concludes our hearing for 
today, but is there anything that any one of you would like to 
state in how we could better provide better coordination, look 
at the services that we need that we are providing now, and 
then what can we possibly do as we look at reauthorization of 
the 2012 Farm Bill as it pertains to nutrition?
    Are there any additional comments that any one of you would 
like to make at this point, just for the record, in areas that 
we should begin to look at? I know that on both sides we are 
very much interested in having improvements in these areas, and 
how can we best provide the services that are being cost 
effective. Under the PAYGO legislation, as we try to comply 
with that, do we have the funds? Are there areas that we need 
to provide some services? So if any of you would like to make a 
statement, any additional statement at this point.
    Mr. Squirrel. Yes, I would like to respond to that. But 
first I would like to tell you that the Cherokee Nation program 
is in better shape in the last 2\1/2\ years than it has been 
the previous 22 years because of the funding formula that they 
developed 2\1/2\ years ago.
    The Chairman. Well, Jeff and I weren't on the program 
before, and we have been on there so that is why it has 
improved.
    Mr. Fortenberry. Very well said.
    Mr. Squirrel. Anyway, sometimes we were the leading program 
in the United States as far as the number of clients served, 
and sometimes we were number two. But whenever the funding 
program came along, it increased our annual budget by $1 
million.
    So at that time with disparity, there wasn't funding even 
though we were the leaders in service and serviced a number of 
clients, but that change put us in great shape. But we still 
have a couple of frustrations. And this one has been mentioned.
    The reason our client participation has been going down 
since April of 2009 is because some of those people that have 
the option of choosing us or SNAP; they went to SNAP, and they 
would come in and tell me why. ``You know, it is $20, it is $80 
a month more for my family.'' And I would tell them, ``I don't 
blame you, that is a good decision for you and your family.'' I 
would support that. So they would come in and kind of apologize 
for switching programs.
    And these are only the ones that have the option to. Some 
reservations don't have the option because there is not a store 
within a reasonable distance. So there was a disparity there. 
But if we had gotten some kind of pro rata increase in the 
number of items that we could offer, we could have been 
competitive and kept our clients.
    But the second one is the fact that we are not allowed to 
carry over any of our funds at the end of the year. If I have a 
couple hundred thousand dollars left, I have to give it back 
and get looked at as a bad financial manager, because I 
couldn't get rid of all my money to the penny. If we could 
carry over, I could carry over that $200,000 and combine it 
with the next year's money and be able to buy a new truck or a 
new freezer, or something like that. A tractor-trailer rig 
costs $220,000, by the time you get all the amenities that you 
need on there, like a freezer, a refrigerator trailer and that 
sort of thing. So that would allow us to buy major equipment 
that we need maybe every 6, 8, 10 years, if we could have 
carry-over and combine it with 2 years' worth of money. Thank 
you.
    Mr. Joseph. I would say, if there could be more work with 
the Department of Agriculture and getting tribes funding for 
those little rototillers or tractors that could help our people 
actually farm some of the fresh produce to mix in with the Food 
Distribution Program, I think it would help.
    Actually you have to get some physical labor in doing that; 
and that would promote some physical activity. And training, if 
there are training sources for our young people to learn how to 
be farmers, to grow their own produce, it would be good.
    Protecting our natural food sources is another thing I 
would like to really see. I was talking with a lady earlier, 
and on some of the coastal waters, you see the oil spill that 
is out there, and we want to protect our water, our foods that 
come from those areas also. My wife is from Port Gamble 
S'Klallam Tribe, and they really rely on their oyster beds and 
the clams and different foods that they gather on the coast. 
And we would want to do everything we can to protect that and 
those food sources.
    Anything that we could do to, preserve our root digging 
grounds. We are working with the conservationists to set aside 
some of these grounds and keep them safe from people that might 
be spraying weeds or running cattle out there and grazing in 
some of these areas where our natural foods grow. If we can 
protect those lands and set some aside, that would really help. 
Thank you.
    The Chairman. Thank you very much. I appreciate your 
testimony this morning. And I know that there is a lot of work 
that we still need to do in a lot of the areas as to how we can 
improve on nutrition and services in the areas. And I know that 
we talked about also farming fresh fruits and vegetables and 
having our own gardens, too. As we look at even providing 
training, we must make sure that water is available. And that 
is something that we need to begin to start looking at as we 
begin to cultivate our own land. As I mentioned to the Ranking 
Member here, it becomes a U.S. product. It is not coming from 
somewhere else, but it is actually being produced here in the 
United States versus something that we are buying at our 
grocery stores that we don't know where it is coming from. And 
the safety of it too.
    So thank you very much. I would like to thank each of our 
witnesses for your participation in today's hearing and your 
thoughtful testimony, your knowledge, your ideas, your 
expertise. I hope it will be used by Congress to find better 
policy solutions for improving nutrition health of America's 
tribal communities.
    We all know the importance of the links between nutrition 
and health. We must do all we can to make sure that FDPIR 
programs and other tribal programs are more effective.
    Again, I want to thank the witnesses and the Members for 
their time today. With that, I would like to adjourn the 
meeting. So at this time, under the rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional materials and supplemental materials, 
written responses from the witnesses, to any questions posed by 
Members.
    The hearing of the Subcommittee on Department Operations, 
Oversight, Nutrition and Forestry is now adjourned. Thank you 
very much for coming.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
Submitted Statement By Judy Goforth Parker, Ph.D., R.N., Administrator, 
            Nation Division of Health, The Chickasaw Nation

    Mr. Chairman and members of the Subcommittee, thank you for your 
invitation to present testimony today. My name is Judy Goforth Parker, 
Ph.D., R.N., administrator for Chickasaw Nation Division of Health. In 
this capacity, I oversee the operations of all of the health programs 
and facilities within the Chickasaw Nation. This includes, but is not 
limited to, Carl Albert Indian Health Facility in Ada, OK, satellite 
clinics in Ardmore, Tishomingo, Durant, and Purcell, OK as well as the 
wellness facilities and nutrition programs. I served as a legislator 
for the Chickasaw Nation for fifteen years. I am pleased and honored to 
be invited to testify today. I bring you greetings from Governor Bill 
Anoatubby of the Chickasaw Nation.
    Thank you, Mr. Chairman, for your commitment to ensuring the 
viability, strength and quality of federal nutrition programs, many of 
which have benefited the American Indian tribal governments and their 
citizens.
    The Chickasaw Nation has administered a number of USDA nutrition 
programs for many years, including four of those addressed in the Farm 
Bill. We serve over 10,000 individuals and work with approximately 95 
farmers, all benefiting from either the Chickasaw Nation Food 
Distribution Program on Indian Reservations (FDPIR), the SNAP Nutrition 
Education Program, Senior Farmers' Market Nutrition Program or the 
Summer Food Program.

Background Information Regarding Factors in Health of Native Americans
    Poverty disproportionately affects the Native American population, 
with some 25% living with an income at or below poverty level. The 
consequence of these poor economic standards is that 43% of Native 
American children under the age of 5 are also living in poverty.
    With poverty being the principal factor causing food insecurity, 
the Native American community suffers from a much higher incidence of 
food insecurity and hunger than the general population. In fact, on 
average, rates of food insecurity in Indian communities are twice as 
high those of the general U.S. population. Nearly one in four Native 
American households is hungry or on the edge of hunger. Food insecurity 
and hunger take a serious toll on the health and well-being of the 
Native American community. These circumstances, which include the 
inability to afford nutritionally adequate and safe food or the ability 
to acquire acceptable foods in socially acceptable ways, can profoundly 
impair physical and mental health status.
    Certainly, poverty also imposes barriers on transportation options. 
Isolation and financial constraints have forced families in some rural 
areas to rely on less expensive, often high-fat foods, and few fruits 
and vegetables.
    Paradoxically, at the same time that Native Americans experience 
hunger and food insecurity, obesity has been declared an epidemic. Both 
obesity and hunger can exist in the same families and the same 
individuals within that family. A paper called, ``The Paradox of Hunger 
and Obesity in America,'' developed by the Center on Hunger and Poverty 
and the Food Research and Action Center, discusses this dilemma. Though 
it sounds contradictory, those with insufficient resources to purchase 
adequate food can still be overweight, for reasons that researchers are 
now beginning to understand. It is especially so in many American 
Indian communities and families. We need to better grasp this paradox 
if we are to grapple with these parallel threats to the well-being of 
so many, and avoid potentially damaging policy development in our food 
assistance programs.
    The fear of running out of food causes people to reduce the quality 
of their diets and/or reduce the quantity of food they consume. 
Therefore, the lack of adequate resources for food could result in 
weight gain in several ways:

  <bullet> Low income families, in an attempt to stretch their food 
        dollars, consume lower cost foods with typically higher 
        calories to stave off hunger, affecting the overall energy 
        density of the diet;

  <bullet> Research shows that food insecure households are willing to 
        trade food quality for food quantity as a coping strategy; 
        after all, the stomach registers satiety rather than 
        nutritional value;

  <bullet> Obesity can be an adaptive response to periods when people 
        are unable to get enough to eat, as people tend to eat more 
        than they normally would when food becomes available, and, over 
        time, this cycle can result in weight gain; and

  <bullet> Physiological changes may occur to help the body conserve 
        energy when diets are periodically inadequate, basically 
        storing more calories as fat.

    Both obesity and hunger/food insecurity require solutions that 
include regular access to nutritionally adequate food. Suggestions that 
food allocations in Federal nutrition programs should be reduced, on 
the grounds that they contribute to obesity among the poor, are without 
scientific merit.
    While Native Americans have experienced certain declines in the 
rates of anemia, growth stunting, underweight and maternal and infant 
mortality over the last 25 years, there is still much work to be done. 
Chronic diseases now account for six of the top ten leading causes of 
death of Native Americans, with the epidemic of obesity and diabetes 
affecting every community. Diabetes is most common among American 
Indians at alarming rates throughout United States. Diabetes is a major 
risk factor for cardiovascular disease in all Native American 
populations, and cardiovascular disease is the leading cause of death 
in this group. Of equal concern is the prevalence of obesity in Native 
American children and adolescents, reported at almost 40%. This is 
attributed to a number of factors, including the paradox described 
earlier and reduced activity in lifestyles. It seems that parents are 
not necessarily making the connection between childhood obesity and the 
high health risks later in life.
    Life expectancy has increased by 10 years since 1955 for American 
Indians, leading to a rapid increase in the number of elders. The 
incidence of food insecurity and hunger may be even more prevalent 
among the elders as they are often left to raise their grandchildren, 
resulting in their doing without as they struggle to make sure the 
children are fed.
    Nutrition and food assistance programs can help Native American 
communities in addressing some of these devastating diseases. Health 
promotion and disease prevention is key--gratefully, many USDA programs 
are targeted toward this end.
    I would contend, however, that guidance on proper selection and 
preparation of foods is every bit as important as just making food 
available. Education and empowering caretakers with the ability to make 
healthy food choices are critical if Indian youth are to achieve the 
successes available to the non-Indian population. Although SNAP 
benefits have increased the total dollars spent on food in households, 
the rate of obesity has increased as well--again, an education 
challenge. If participants purchase higher priced but healthier foods 
that were previously out of reach, programs could have a positive 
effect on weight. Data indicates, however, that SNAP recipients do not 
necessarily tend to purchase more fruits, vegetables and grains, quite 
possibly because they still fear that possible shortfall at some point 
each month. Nutrition education must accompany food benefits in every 
food delivery venue.

The Food Distribution Program on Indian Reservations (FDPIR) Today
    The FDPIR program has seen a number of enhancements in recent years 
through the addition of fresh fruits and vegetables, frozen chicken and 
beef, as well as reduction or elimination of many of the high fat, high 
sodium foods. Additionally, the recent increase in variety of fresh 
fruits and vegetables, made available as a result of collaboration 
between FNS and ITO representatives via the Food Package Review 
Committee, is highly anticipated and should be available later this 
summer. On an administrative front, the establishment of a long awaited 
Funding Methodology in 2008 to assure fair and equitable funding to 
programs across the country was another tremendous partnership endeavor 
between FNS and tribal leaders. We are very grateful for these 
advancements, allowing FDPIR to serve our clients in more meaningful 
ways.
    In our area, because we have very few reservations in Oklahoma, 
eligible Native American families can access either the SNAP program or 
the FDPIR at their convenience, as long as they are only enrolled in 
one program at a time. We serve our Chickasaw Nation clients in a 
friendly and attractive grocery store setting, for which we were 
recognized with the 2000 USDA Pyramid of Excellence Award. We feel 
strongly that families should be served with dignity and respect and 
thus, we continue to expand the availability of FDP grocery stores 
across our 13 county area. We constantly offer education to make 
customers aware of the enhanced value of participating in the FDPIR, 
including more total volume of food (80 lbs./person/month) and maximum 
nutrient benefit of food choices, i.e., fresh produce rather than 
canned, heart healthy substitutions.
    Federal policy should encourage rather than discourage tribes from 
taking their own creative initiatives. A rubber stamp approach will not 
meet the needs of all tribes in Indian Country. Given the food 
insecurity, poverty and health problems disproportionately affecting so 
many Native Americans, it is only sensible that nutrition and food 
assistance programs will continue to be a key ingredient in building 
healthy communities. Tribes need to be allowed the flexibility to 
implement programs in an innovative and culturally appropriate manner.
Recommendations for Further Enhancing FDPIR Effectiveness
    We encourage the Subcommittee to provide policy changes and 
adequate funding authorization that enables tribes to:

  <bullet> Continue to improve the nutritional quality of the food 
        package by offering foods with lower fat content, higher whole 
        grain content and lower sugar and sodium content. Foods that 
        are convenient to serve and culturally appropriate are key with 
        many families we serve today.

  <bullet> Provide a method in the SNAP (Food Stamp) Act for tribal 
        governments to directly access SNAP Nutrition Education (SNAP 
        NE) funds, just as individual state governments do. This 
        Federal Government-to-government partnership has been correctly 
        extended to most of our nutrition programs, i.e., FDPIR, WIC 
        and Farmers' Market Nutrition programs. The current posture of 
        forcing tribes to negotiate through the various state 
        department of human services/other agencies for SNAP NE is 
        contrary to the basic tenants of tribal sovereignty, and also 
        makes it more difficult to help families with special needs due 
        to extensive delays in approval decisions.

  <bullet> Provide more nutrition education monies to the FDPIR 
        grantees, as an alternate to tribes directly accessing SNAP NE 
        funds.

  <bullet> Provide infrastructure funding to facilitate one-time 
        funding needs for the FDPIR. Many needs of tribes in 
        administration of this program could be met if there was 
        opportunity to compete for infrastructure grants, much like 
        those provided in the WIC program, to address the periodic 
        equipment need, renovation of space to better meet client 
        needs, expansion of a warehouse or to create a grocery store 
        setting with a food demonstration kitchen for education, all of 
        which enhance program service delivery.

  <bullet> Allow Native American families living outside of tribal 
        reservations, but close to FDPIR distribution sites, to elect 
        to participate in the FDPIR rather than SNAP, recognizing that 
        they will likely receive far more nutrient-dense foods in the 
        80 lbs./person/month.

  <bullet> Recommend the USDA facilitate study of the causes for 
        decline in FDPIR participation over recent years. Decrease in 
        FDPIR caseload is of great concern. It appears that FDPIR is 
        losing many households to SNAP. It is our belief that the main 
        reason is the lack of restrictions on food items purchased with 
        SNAP funds. FDPIR continues to make great strides in improving 
        the nutritional value of the food package while there are no 
        nutritional requirements concerning the use of SNAP benefits. 
        It is of additional concern that the recent ARRA increase in 
        SNAP benefits, while seemingly a positive move, has resulted in 
        a direct impact in FDPIR households further leaving FDPIR for 
        SNAP, and ultimately consuming more convenient, low nutrient-
        dense foods, perpetuating the advancement of chronic diseases 
        we hope to negate.

Barriers To Accessing Other USDA Nutrition Programs
    There are significant barriers for many tribes to access some of 
the very best nutrition and food assistance programs USDA offers, 
including a number of those addressed in the farm bill: the Farmers' 
Market Nutrition Programs, the SNAP Nutrition Education program and the 
Summer Food Service Program. There are simply too many people in Indian 
Country and on reservations who do not have the opportunity to 
experience the health and economic benefits these programs offer.
    I urge you to consider the following recommendations to eradicate 
access barriers to USDA nutrition and food assistance programs and to 
take the following actions:

  <bullet> Facilitate tribes' direct access, through a government-to-
        government agreement, to participate in the Summer Food Service 
        Program and At-risk After School Snack Program, as recommended 
        above with the SNAP ED program. Both of these offer terrific 
        opportunities to address hunger for children in a meaningful 
        way. Again, only accessible through the state education 
        department and very limited in administrative funds, these 
        programs present an access challenge for tribes. The program 
        encourages partnering and community involvement for 
        administrative in-kind, but the training burden is high for 
        these individuals.

  <bullet> Expand funding for WIC and Senior Farmers Market Nutrition 
        programs to allow more tribes to participate in these programs. 
        Funding levels have varied little for several years, in spite 
        of the programs' tremendous popularity, thus preventing any new 
        applicants to participate. Only a handful of tribes in the 
        entire country currently have FMNP grants. This program helps 
        produce fruits and vegetables and addresses one of the primary 
        objectives of all nutrition education efforts today. The 
        Chickasaw Nation Senior Farmers' Market Nutrition Program (SR 
        FMNP) has brought a considerable infusion of potential funding 
        to growers in the area--over $1.5 million since inception, thus 
        creating opportunity for Native American farmers. Approximately 
        2,600 Native American low-income seniors benefit from 
        participation in our FMNP each year. Native American seniors 
        appreciate and utilize the FMNP benefits as evidenced by the 
        redemption rate of more than 80%.

  <bullet> Promote the recruitment and retention of registered 
        dietitians to support programs at the tribal level. Employing 
        nutrition professionals in the Native American nutrition 
        programs could help in developing culturally appropriate 
        nutrition education materials, shaping policy or counseling 
        program participants toward healthier choices.

  <bullet> Improve the use of information technology in nutrition 
        programs to enhance service delivery and program management.

  <bullet> Continue promoting breastfeeding as the method of choice for 
        infant feeding.

  <bullet> Update Meal Pattern Requirements in the Child and Adult Care 
        Food Program (CACFP) to be more congruent with current 
        nutrition recommendations and allow comparable substitutions 
        for fluid milk, i.e., yogurt or cheese. Cultured milk products 
        are often better tolerated by the Native American population.

Conclusion
    Given the improved state of health enjoyed by many Americans, the 
lingering health disparity among American Indians and Alaskan Natives 
is troubling. Food insecurity, poverty and health problems continue to 
disproportionately affect more than 65% of Native Americans. 
Strengthening Federal nutrition programs continues to be a key factor 
in building healthy and economically strong communities.
    Investment by Federal nutrition programs in foods of high 
nutritional quality and the educational support to assist families in 
using those optimally is far less costly than funding care for the 
chronic diseases many develop in the absence of sound nutritional 
status. Nutrition education and provision of foods high in nutritional 
value can do much to ward off hunger and food insecurity, as well as 
combat increasing rates of obesity and diabetes. Improving the health 
and food security of Native American families must ever be present in 
the minds and hearts of Congress as it establishes policy and fulfills 
the Federal trust responsibility to the native people.
    Thank you, Mr. Chairman and Members of the Subcommittee. I remain 
ready to answer any questions or provide more information you may need.
                                 ______
                                 
Submitted Statement By Gloria Goodwin, Secretary, National and Regional 
Board of Directors, National Association of Food Distribution Programs 
                         on Indian Reservations

6/20/10

    Good morning, Members of Congress,

    My name is Gloria Goodwin from Minnesota's White Earth Indian 
Reservation. I've worked with Food Distribution for 28 years. I serve 
on the National and Regional Board of Directors as Secretary for Food 
Distribution Programs on Indian Reservations. Currently NAFDPIR 
represents over 200 tribes in the Food Distribution Program. There are 
115 agencies that distribute foods in FDPIR.
    It's an honor to be able to advocate on behalf of the people that 
access the program. My heart really goes out to the people.
    I'd like to take this opportunity to thank Under Secretary Kevin 
Concannon and his staff for visiting White Earth Reservation Food 
Distribution Program to witness first hand how services are applied to 
our people.
    The Commodity feeding program has been in existence for more than 
30 years. White Earth and Leech Lake Reservations in Minnesota were the 
first programs to operate in 1979. White Earth served approximately 
2,000 customers when the program began.
    Participation has significantly declined since then.
    Issues and concerns that I feel needs to be addressed:

    1. Declining participation rates.

    2. Inequities between SNAP & FDPIR.

    3. Nutrition Education grant matching requirements.

    4. Cultural food offerings.

    5. The discontinuation of Butter.

    6. Administrative dollars.

    <bullet> This program has a significant impact on our membership. 
            FDPIR participation continues to decline. The numbers will 
            tell you that this is a national trend. USDA recently 
            increased the SNAP benefits for participants on average of 
            $20 per household member using additional ARRA funds. This 
            caused a number of FDPIR participants to choose to switch 
            programs resulting in the decline in FDPIR participation. 
            Both programs are funded by USDA and should be governed by 
            the same policies regarding food benefits. Consumers are 
            often seen purchasing unhealthy food choices with SNAP 
            benefits, such as buying pizza, pop, potato chips, candy 
            and the list goes on. We've come a long way to make our 
            FDPIR food package healthy and nutritious. Products are now 
            much lower in fat, sodium and sugar. Labels are more 
            appealing and attractive. The stigma of the generic 
            government labels are a thing of the past.

    <bullet> There are many inequities between SNAP and FDPIR. We are 
            asking that guidelines increase and deductions expand in 
            parallel with our sister program, SNAP.

    <bullet> We need to invest more in Nutrition education and provide 
            an easier method to access funds. Many programs do not 
            staff Nutrition Educators and there is a great need for 
            tribes to employ full time FDPIR nutrition educators. 
            Nutrition Educators are vital assets to our programs. The 
            25% matching requirement is a common barrier for some 
            tribes. Program Directors are often intimidated by the 
            grant writing and reporting process, so we need to find 
            ways to make the process much easier. We need to make a 
            unified effort to encourage healthy eating and provide more 
            incentives to keep health care costs down. Customers need 
            to eat and live well. Diseases are prevalent on the 
            reservations. We recognize the health crisis of diabetes, 
            obesity and other health related issues that impact the 
            clients that we serve on a daily basis. Native Americans 
            suffer from the highest rate of diabetes in the nation and 
            the incidence of this disease has more than doubled in the 
            last two generations. We need to combat this ongoing 
            problem. We need to educate and encourage our clients how 
            to eat better. I ask that we examine waiving the 25% match 
            to make the process easier to access nutrition education 
            funds.

    <bullet> I believe we need additional food dollars to expand our 
            nutritional profile to include native foods such as wild 
            rice, bison, salmon and cranberries. Native foods provide 
            significant sources of high nutritional value. Native foods 
            can serve as a return to the traditional dietary habits 
            that can prevent the onset of diseases and expensive 
            medical costs. The food additions will enhance the variety 
            of foods which will encourage participants to apply and 
            reapply for commodity foods. Tribal cultures vary greatly 
            within each Region and sometimes within each State. As 
            cultures vary, so do food preferences.

    <bullet> Customers want their butter back. FNS Headquarters made a 
            decision to discontinue the butter product because of the 
            high fat content. This decision has been made without 
            Tribal consultation. Shortening has also been discontinued. 
            Customers now have a choice between low fat margarine and 
            vegetable oil--or--both for bigger households. Research 
            will prove that butter is better for you because it is a 
            natural product without all the additives. The low fat 
            margarine has limited uses and is not recommended for 
            baking. With education and encouragement to eat healthier, 
            butter is a healthier option when eaten in moderation.

    I believe you recognize there is poverty in America and in many 
        instances our people are still the poorest of the poor.

    This is a very good program that serves many tribes but it gets 
        increasingly difficult to deliver to our people because of 
        costs and availability of food product. This program serves as 
        the tribes most basic need which is Food.

    And last but not least, additional discretionary dollars are always 
        a priority to effectively and efficiently administer programs.

    We are seeking your assistance in resolving some of these issues to 
        better deliver the food package to some of the nation's poorest 
        people.

    NAFDPIR's partnership with FNS has resulted in significant 
improvements to the FDPIR food package and we look forward to continue 
working together in the future to better service our customers. Thank 
you for your time.
                                 ______
                                 
  Submitted Statement By Susie Roy, Food Distribution Director, Leech 
 Lake Band of Ojibwe; Member, Board of Directors, National Association 
          of Food Distribution Programs on Indian Reservations

6/21/10

    Good morning Committee Members,

    My name is Susie Roy and I am from Minnesota, I am also the Food 
Distribution Director for the Leech Lake Band of Ojibwe and the elected 
President for the Midwest Region. I also sit on the board of the 
National Association of Food Distribution Programs on Indian 
Reservations (NAFDPIR) representing the Midwest Region.
    Thank you for inviting me. This is an honor to be here, I must 
admit that I am a little nervous here in front of all of you, but I am 
going to do my best.
    I feel that we have come a long ways with the Food Distribution 
Programs on Indian Reservations since 1979 but we still have a long 
ways to go to be able to provide quality service to our people.
    Some of our reservations sit in remote areas with only one grocery 
store or one convenience store and gas station and the business owners 
can charge what they want for their products, this has been a big 
concern as some of the low-income households can't afford to feed their 
families healthy food items.
    We need to look at increasing our food package guide rates so 
families that choose to participate on the Food Distribution Program 
can have enough healthy foods to feed their families all month.
    The eligibility guidelines are a big issue that also needs to be 
looked at closely. The 20% standard deduction for earned income has 
been there since 1979 we need to move the Food Distribution Program 
along with inflation. We live in an area where in the winter months it 
gets to 40 below zero sometimes and people have high heating cost, 
electrical bills and medical expenses and these are not allowable 
deductions for eligibility for the Food Distribution Program. Sometime 
families are only $1 to $5 over the income guidelines. All Social 
Security clients should also be automatically eligible.
    The SNAP program continues to raise their benefits for clients to 
purchase unhealthy food choices for their families this is a known fact 
that they purchase pizzas, potato chips, pop, candy and other unhealthy 
foods.
    To increase our food packages to low income households on Indian 
Reservations we would need to have an increase in our appropriated food 
dollars.
    With the healthy food packages we provide on the Food Distribution 
Program we need a significant amount of Nutrition dollars to provide 
each Food Distribution Program on Indian Reservations with Nutrition 
Educators on a daily basis.
    I think that everybody in Indian Country has had a loss of a family 
member to cancer or diabetes. We have a significant amount of Native 
American people just on my reservation with diabetes and some of my own 
family members. Diabetes is now being detected at an alarming rate in 
young children on reservations.
    Nutrition Educators need to start providing healthy choices now. A 
handful of Food Distribution Programs might have access to Nutrition 
Educators but not on a full time basis.
    Nutrition funds should not be competitive for programs it should be 
a given when it comes to nutrition, we should not have to compete over 
funds with other programs.
    Native foods for each region should be allowed on our food packages 
they are high in nutrition for Native people.
    I could go on and on but I will end here.
    Thank you for giving me this opportunity to voice my concerns on a 
very needed program on Indian Reservations.
                                 ______
                                 
     Submitted Statement Ahniwake Rose, Policy Analyst, Health and 
            Education, National Congress of American Indians

Background of NCAI
    The National Congress of American Indians (NCAI) is the oldest and 
largest American Indian organization in the United States. In 1944, 
NCAI was created by tribal leaders as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of tribal governments, while 
ensuring that Indian people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of tribal governments across 
the nation

American Indian and Alaska Native Economic Disparities
    Many American Indian and Alaska Native families depend on the food 
that is provided by the Food Distribution Program on Indian 
Reservations (FDPIR). The economic situation on Indian reservations is 
significantly challenging, resulting in many American Indians and 
Alaska Natives having limited access to nutritious and quality foods. 
Twenty-five percent of American Indians and Alaska Natives are living 
in poverty, while 13% of the U.S. lives at or below the poverty 
line.\1\ While the unemployment rate is reaching 9.5% for the overall 
population, some tribal communities are suffering from a 70% 
unemployment rate.\2\ Additionally, most reservations lack the 
infrastructure and urban environment to attract business development. 
As such, local grocery stores are unable to offer affordable, fresh, 
and nutritious foods for the impoverished community they serve. In the 
Sioux Standing Rock Reservation, for example, one grocery store serves 
2.5 million acres. As a result, the cost of food increases, and the 
variety of fresh produce is reduced.
---------------------------------------------------------------------------
    \1\ U.S. Census, 2000; Energy Information Administration, Energy 
Use and Renewable Energy Development Potential on Indian Lands, 2000; 
2006 GAO 06-189 Report, Challenges to Assessing and Improving 
Telecommunications for Native Americans on Tribal Lands.
    \2\ U.S. Census, 2000; Energy Information Administration, Energy 
Use and Renewable Energy Development Potential on Indian Lands, 2000; 
2006 GAO 06-189 Report, Challenges to Assessing and Improving 
Telecommunications for Native Americans on Tribal Lands.
---------------------------------------------------------------------------
    To further complicate this situation, many American Indians and 
Alaska Natives do not have the resources to maintain fresh and 
nutritious foods within their homes. Fourteen percent on Indian people 
do not have electricity, a necessity for refrigeration, freezing, and 
cooking. An additional 13% do not have access to clean water, which 
creates a hazardous obstacle for cleaning and cooking fresh foods.\3\
---------------------------------------------------------------------------
    \3\ U.S. Census, 2000; Energy Information Administration, Energy 
Use and Renewable Energy Development Potential on Indian Lands, 2000; 
2006 GAO 06-189 Report, Challenges to Assessing and Improving 
Telecommunications for Native Americans on Tribal Lands.
---------------------------------------------------------------------------
    On reservations, these economic challenges create additional 
barriers to obtaining fresh produce and healthy foods. As a result, 
American Indian and Alaska Native communities are suffering from the 
highest rates of obesity and diabetes in the country.\4\ American 
Indian and Alaska Native adults are 1.6 times more likely as White 
adults to be obese, which is equivalent to 34% of American Indian and 
Alaska Native adults and 21.3% of White adults.\5\ More alarming, 
however, is the rapid proliferation of obesity among Native youth. More 
than 39% of low-income American Indian and Alaska Native children ages 
2 to 5 are overweight or obese.\6\ Also, the obesity rate among 
American Indian and Native Alaskan 4 year olds is 31%, which is double 
the obesity rate of their White counterparts.\7\
---------------------------------------------------------------------------
    \4\ American Diabetes Association.
    \5\ CDC 2005. Health Characteristics of the American Indian and 
Alaska Native Adult Population: United States, 1999-2003. Advance Data 
(356), Table 2.
    \6\ Polhamus B., Dalenius K., Borland E., et al. Pediatric 
Nutrition Surveillance 2006 Report. Atlanta: U.S. Department of Health 
and Human Services, Centers for Disease Control and Prevention, 2007.
    \7\ Anderson S.E. and Whitaker R.C. ``Prevalence of Obesity Among 
U.S. Preschool Children in Different Racial and ethnic Groups.'' 
Archives of Pediatrics & Adolescent Medicine, 163(4): 344-348, 2009.
---------------------------------------------------------------------------
    A natural result of obesity and poor eating habits is the 
development of diabetes and other health complications. According to 
the Indian Health Service (IHS) Diabetes Program, there was a 161% 
increase in diabetes in young people aged 25 to 34 years of age, and a 
110% increase in diabetes in youth between the ages of 15 to 19.\8\ The 
Robert Wood Johnson Foundation also released a recent report that 
highlighted a 68% increase of diabetes cases among American Indian and 
Alaska Native adolescents over a 10 year period.\9\ These alarming 
statistics result in Native people dying from diabetes at a rate of 
189% higher than other Americans.\10\
---------------------------------------------------------------------------
    \8\ IHS Diabetes Program Statistics.
    \9\ Acton K.J., Burrows N.R., Wang J., et al. ``Diagnosed Diabetes 
Among American Indians and Alaska Natives Aged < 35 Years--United 
States, 1994-2004.'' Morbidity and Mortality Weekly Report, 55(44): 
1201-1203, 2006.
    \10\ SAMHSA, National Survey on Drug Use and Health, 2003.
---------------------------------------------------------------------------
Benefits Obtained from FDPIR
    For the past 20 years, FDPIR has been working to create a food 
package that offers a variety of nutritious and healthy foods that meet 
the dietary guidelines for Indian people. To support this endeavor, the 
FDPIR Food Package Review Work Group was created to monitor customer 
satisfaction and continually improve the food package by recommending 
healthy, nutritious, and flavorsome foods. In comparison to the 
Supplemental Nutritious Assistance Program (SNAP), another food program 
that tribal members have the option of choosing, FDPIR scores 29 points 
higher on the USDA's Healthy Eating Index. Out of 100, FDPIR scored 81, 
the average American followed with 58, and SNAP participants trailed 
with a rating of 52.\11\
---------------------------------------------------------------------------
    \11\ USDA FNS, Office of Research and Analysis, FDPIR Food Package 
Nutritional Quality: Report to Congress, 2008.
---------------------------------------------------------------------------
    Based on these nutrition statistics, some tribes are concerned that 
SNAP participants are not spending their food stamps wisely. Instead of 
choosing nutritious foods that will benefit their health and overall 
well-being, they are opting for fast, processed, and unhealthy foods. 
In addition, many SNAP participants are exhausting all of their food 
benefits before the month expires.
    In terms of convenience, many FDPIR programs have identified the 
individuals who lack transportation. The Standing Rock Sioux tribe, for 
example, offers home delivery to the elderly, the handicapped, and 
those who lack transportation each month. Alternatively, SNAP is not a 
realistic option for reservations where the only grocery store is 
located a hundred miles away. Even for those reservations where a 
grocery store is conveniently located, the food options are limited to 
what is practical for a rural store to have delivered.

Improving the FDPIR
    The following recommendations were gathered from tribal FDPIR 
agencies and tribal leaders who have shared their concerns with NCAI. 
NCAI, however, is still in the process of establishing a task force to 
develop additional FDPIR policies recommendations.
    Permanent implementation of traditional Native foods. Before 
processed foods entered the diets of American Indians and Alaska 
Natives, tribal communities lived from traditional hunting, fishing, 
gathering and agriculture. By doing so, they had few diseases, and 
maintained healthy and strong lives. Many tribal leaders have voiced 
their support in returning to these traditional foods that encourage 
healthy living and cultural sustainability. A major element is ensuring 
that traditional foods are permanently included in FDPIR.
    Encourage local food production and markets. Establishing and 
supporting local food markets would support the local economy, 
encourage the production and consumption of tribal traditional foods, 
and offset additional costs for the delivery of fresh foods to rural 
tribal communities.
    Eliminate asset tests. USDA has traditionally aligned FDPIR rules 
with those governing SNAP, both for administrative convenience and as a 
matter of fairness. By maintaining parallel eligibility standards 
between the two programs, USDA ensures that the program is a comparable 
alternative to SNAP. Tribes, however, do not have the same option as 
states to lift the asset test on eligibility. Further, it does not 
ensure that American Indian and Alaska Native families living in states 
that have lifted the asset test for SNAP, are free of an asset test 
administered by FDPIR. If not addressed, FDPIR will be the only federal 
nutrition program that requires an asset test as part of eligibility.
    Interagency collaboration. While FDIPR remains an important food 
source for Native communities, it is also important to seek 
collaborative efforts with other government agencies that continuously 
distribute food. For instance, the Bureau of Indian Affairs and Bureau 
of Indian Education distribute school breakfasts and lunches to Native 
students. Encouraging interagency collaboration with local producers 
will assist in efforts to regularly secure healthy and nutritious foods 
for Native communities.
    Educate tribal communities. FDPIR still maintains a negative 
stereotype from its establishment in the 1960's, thus many tribal 
members are hesitant in returning. As a result, tribal communities need 
specific outreach to inform them of the updated and modernized program. 
The image of FDPIR needs to be changed, where it aligns with the 
nutritious, healthy, and flavorsome foods it offers. Several tribes 
have taken on this work themselves, presenting cooking demonstrations, 
offering cooking classes, and producing cook books. Each of these 
solutions provide a way for tribal members to become familiar with the 
new food packages that are being provided, while teaching them skills 
that will encourage a nutritious and healthy lifestyle. In addition, 
many of the youth do not possess the skills to cook, so these are 
educational skills for them to develop as well.
    To ensure maximum outcomes for these innovative practices, 
appropriate staff is needed to educate FDPIR participants. Recruiting 
and retaining registered dieticians and nutrition professionals would 
assist tribal communities by developing culturally appropriate 
nutrition education materials, shaping policy, and counseling FDPIR 
participants toward healthier choices.
    Allow unused funds to be carried over to the next year and increase 
funding. Additional funding would allow tribal programs to upgrade 
facilities and purchase new equipment, such as trailers, trucks, and 
freezers. These funds would also allow tribal programs to create 
educational programs and hire additional staff.

Tribal Consultation
    A unique government-to-government relationship exists between 
federally-recognized tribes and the Federal Government. This 
relationship is grounded in numerous treaties, statutes, and executive 
orders, which reinforce the legal status of tribal governments. An 
integral element of this government-to-government relationship is that 
consultation occurs with Indian tribes. President Obama recently 
reaffirmed this relationship with an Executive Memorandum, which 
requires each federal agency to develop a plan to implement 
consultation and coordination with Indian tribal governments as 
required by Executive Order 13175.
    Because FDPIR is administered by the U.S. Department of 
Agriculture, tribal governments should be consulted before any changes 
are made to the existing program. Moreover, FDPIR is a program that was 
established to specifically meet the food shortage of Native people.
Conclusion
    Although FDPIR has significantly improved, the alarming rates of 
diabetes and obesity continue to grow within Indian Country. Therefore, 
it is vital to address the need for fresh, healthy, and traditional 
foods. As policies and recommendations are being considered, NCAI 
encourages the Committee to seek further comments as needed.

                               Attachment

Diabetes and Obesity in Indian Country Fact Sheet
Diabetes
  <bullet> American Indians and Alaska Natives have the highest 
        prevalence of diabetes among all U.S. racial and ethnic 
        groups.\1\
---------------------------------------------------------------------------
    \1\ American Diabetes Association.

  <bullet> In some American Indian and Alaska Native communities, more 
        than half of adults aged 18 and older have diagnosed diabetes, 
        with prevalence rates reaching as high as 60%.\2\
---------------------------------------------------------------------------
    \2\ IHS Report to Congress, 2007.

  <bullet> Between 1990-2009, among American Indians and Alaska Natives 
        there was a 161% increase in diabetes in young people aged 25-
        34 years and a 110% increase in diabetes in youth aged 15-19 
        years.\3\
---------------------------------------------------------------------------
    \3\ IHS Diabetes Program Statistics.

  <bullet> Native people die from diabetes at a rate of 189% higher 
        than other Americans.\4\
---------------------------------------------------------------------------
    \4\ SAMHSA, National Survey on Drug Use and Health, 2003.

  <bullet> American Indians and Alaska Natives are twice as likely to 
        be told by a physician that they have diabetes as their non-
        Hispanic white counterparts.\5\
---------------------------------------------------------------------------
    \5\ CDC 2005. Health Characteristics of the American Indian and 
Alaska Native Adult Population: United States, 1999-2003. Advance Data 
(356), Table 4.

  <bullet> In 2005, American Indian and Alaska Natives were 1.9 times 
        as likely as non-Hispanics white to die from diabetes.\6\
---------------------------------------------------------------------------
    \6\ CDC 2007. Health United States, 2007. Table 29.

  <bullet> Over a 10 year period, the number of diabetes cases 
        increased by 68 percent among American Indian and Alaska Native 
        adolescents.\7\
---------------------------------------------------------------------------
    \7\ Acton K.J., Burrows N.R., Wang J., et al. ``Diagnosed Diabetes 
Among American Indians and Alaska Natives Aged < 35 Years--United 
States, 1994-2004.'' Morbidity and Mortality Weekly Report, 55(44): 
1201-1203, 2006.
---------------------------------------------------------------------------
Obesity
  <bullet> More than 39% of low-income American Indian and Alaska 
        Native children ages 2 to 5 are overweight or obese.\8\
---------------------------------------------------------------------------
    \8\ Polhamus B., Dalenius K., Borland E., et al. Pediatric 
Nutrition Surveillance 2006 Report. Atlanta: U.S. Department of Health 
and Human Services, Centers for Disease Control and Prevention, 2007.

  <bullet> American Indian and Alaska Native adults are 1.6 times as 
        likely as White adults to be obese, which is equivalent to 34% 
        of American Indian and Alaska Native adults and 21.3% of White 
        adults.\9\
---------------------------------------------------------------------------
    \9\ CDC 2005. Health Characteristics of the American Indian and 
Alaska Native Adult Population: United States, 1999-2003. Advance Data 
(356), Table 2.

  <bullet> A national survey found that 31.2 percent of American Indian 
        and Native Alaskan 4 year olds are obese. The obesity rate 
        among American Indians and Native Alaskans was higher than that 
        of any other racial or ethnic group studied and almost double 
        the rate among White 4 year olds.\10\
---------------------------------------------------------------------------
    \10\ Anderson S.E. and Whitaker R.C. ``Prevalence of Obesity Among 
U.S. Preschool Children in Different Racial and Ethnic Groups.'' 
Archives of Pediatrics & Adolescent Medicine, 163(4): 344-348, 2009.
---------------------------------------------------------------------------
                                 ______
                                 
 Submitted Paper By Roxanna Newsom, President, National Association of 
           Food Distribution Programs on Indian Reservations

Food Distribution Program on Indian Reservations
Farm Bill 2012
Position Paper
    We greatly appreciate recent visits made to reservations: Secretary 
Vilsack's visit to Chickasaw Nation and Under Secretary Kevin 
Concannon's visit to White Earth Reservation. We want to point out that 
``one size doesn't fit all''. There are vast geographical differences 
between ITO's and for many of our citizens nothing has changed since 
the inception of the program.
    When comparing FDPIR to SNAP,* FDPIR is the healthier alternative. 
With the epidemic proportions of Diabetes, Heart disease and obesity, 
NAFDPIR submitted a resolution requesting establishment of a Food 
Package Review Committee consisting of Program Directors, Tribal 
Dietitians and FNS staff. This collaboration has resulted in 
improvements in the food package, including a decrease in fat and 
sodium and an increase in fresh produce. Whereas SNAP has no 
restrictions on any foods purchased.
---------------------------------------------------------------------------
    * FDPIR Food Package Nutritional Quality: Report to Congress--
Summary, Food and Nutrition Service, Office of Research and Analysis, 
November 2008. http://www.fns.usda.gov/oane/
---------------------------------------------------------------------------
    FDPIR requests re-alignment of income guidelines based on the 
poverty level since FDPIR operates only on reservations, near 
reservations and Oklahoma where SNAP operates in all states. Separate 
guidelines are offered for Alaska due to their economic status, and 
according to Per Capita Personal Income by State and County, many 
reservations are located in the lowest ranked areas.
    The lack of affordable housing is forcing Tribal members to seek 
housing in larger communities near reservations. The current 10,000 
population cap regulation prohibits us from serving many Native 
families that would benefit from FDPIR services. Although we have the 
opportunity to submit a waiver to serve this eligible population the 
process is cumbersome and determination is often inconsistent. If this 
regulation was amended a majority of the programs currently have the 
capability to provide services to these families.
    Although the $1,000,000 Nutrition education grant has been 
beneficial to programs awarded funds, the grant process is cumbersome 
and inefficient. Many ITO's do not have the resources to successfully 
apply for competitive grants. All regions have established Nutrition 
Education committees providing NE resources to all ITO's in their 
respective region; it would be more practical to allocate the funds to 
regions by current funding methods with the exclusion of the 25% Tribal 
match.
    FDPIR requests our annual funding level be at 100% and eliminate 
the 25% match.
    FDPIR requests authorization to allow the carryover of 
administrative funding as allowed in other FNS programs.

                                  <all>

</pre></body></html>
